     Department
     Department of Veterans Affairs
     Office of Inspector General




Semiannual Report to Congress
Issue 65 | October 1, 2010—March 31, 2011
Online Availability
This report is provided with our compliments. It is also available on our web site:
http://www.va.gov/oig/publications/semiann/reports.asp


To access other OIG reports, visit: http://www.va.gov/oig/publications/reports-list.asp




Additional Copies
Copies of this report are available to the public. Written requests should be sent to:

                                 Office of Inspector General (53B)
                                  Department of Veterans Affairs
                                    810 Vermont Avenue, NW
                                      Washington, DC 20420




Automatic Notifications
OIG offers a free e-mail subscription service that provides automatic notifications by e-mail when
new reports or other information is posted to the OIG web site. You may specify that you would
like to receive notification of all OIG reports or only certain types of OIG reports. In addition,
you may change your preferences or unsubscribe at any time. To receive e-mail notifications of
additions to the OIG web site, go to: http://www.va.gov/oig/publications/reports-list.asp and click
on “Sign up to receive e-mail updates.”

In addition, you can also sign up to receive OIG’s RSS feeds by visiting:
http://www.va.gov/oig/rss/reports-rss.asp and clicking on “Subscribe to this feed.”
       Message from the
                                                       Inspector General
                                                     I am pleased to submit this issue of the Semiannual
                                                     Report to the Congress of the United States. Pursuant
                                                     to the Inspector General Act of 1978, as amended,
                                                     this report presents the results of our most signiﬁcant
                                                     accomplishments during the reporting period
                                                     October 1, 2010 – March 31, 2011.

                                                    During this reporting period, the Ofﬁce of Inspector
                                                    General (OIG) issued 140 reports on VA programs and
                                                    operations. OIG investigations, inspections, audits,
                                                    evaluations, and other reviews identiﬁed over
                                                    $3 billion in monetary beneﬁts, for a return on investment
                                                    of $65 for every dollar expended on OIG oversight.
                                                    One of our audits identiﬁed that the Veterans Beneﬁts
                                                    Administration continues to lack adequate procedures
to correctly process 100 percent disability evaluations. OIG projects that these weaknesses could cost VA
more than $1 billion over the next 5 years.

OIG’s Ofﬁces of Audits and Evaluations and Healthcare Inspections conducted a joint review to assess
VA’s capacity to address combat stress in women Veterans, as directed by the Conference Report to
Accompany the Consolidated Appropriations Act of 2010. OIG observed that VA generally diagnosed
higher proportions of female Veterans with mental health conditions after separation, but lower proportions
were diagnosed with the speciﬁc mental health condition of post-traumatic stress disorder and traumatic
brain injury. Notwithstanding, OIG did not ﬁnd any evidence that claims processors applied VBA’s current
policies and procedures differently when evaluating male and female Veterans’ disability claims. OIG
recommended regional ofﬁces post signs informing Veterans about the services available through the
Women Veterans Coordinators, and provide additional sensitivity training to Women Veterans Coordinators
and claims processors on military sexual trauma-related disability claims.

The Ofﬁce of Healthcare Inspections, in its pursuit to help ensure VA provides safe and effective health
care, evaluated program oversight and quality assurance processes for diagnostic and therapeutic radiation
procedures at Veterans Health Administration facilities. Particularly, the review found an absence of
computed tomography (CT) scan oversight to ensure that delivered doses of radiation are not excessive.
Care providers are not routinely informing patients prior to imaging procedures that CT scans may cause
cancer. Further, OIG identiﬁed a need for patients and providers to have information about prior radiation
exposure available to them at the time of clinical decision making.

OIG criminal investigators closed 476 investigations, and made 258 arrests for a variety of crimes including
fraud, bribery, embezzlement, identity theft, drug diversion and illegal distribution, computer crimes, and
personal and property crimes. OIG investigative work also resulted in 163 administrative sanctions. In one
case, a Veteran was sentenced to 63 months’ incarceration and ordered to pay $804,522 in restitution after
an OIG and Bureau of Alcohol, Tobacco, Firearms, and Explosives investigation proved that for more than
20 years the defendant feigned blindness in order to receive VA monetary beneﬁts.

Throughout our OIG work, the Secretary, Deputy Secretary, and senior management have played critical
roles due to their interest and willingness to engage in dialogue about our inspections, audits, evaluations,


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          |1
Issue 65 | October 1, 2010 — March 31, 2011
                      Message from the Inspector General, continued

and investigations. Together, we are ensuring America’s Veterans receive the care, support, and
recognition they have earned in service to our country. We will continue to work in partnership with VA and
Congress to help transform VA into a 21st Century organization that is people-centric, results-driven, and
forward-looking.




GEORGE J. OPFER
Inspector General




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
 2|
                                                                            Issue 65 | October 1, 2010 — March 31, 2011
Table of Contents

Message from the Inspector General | 1
Statistical Highlights | 4
VA and OIG Mission, Organization, and Resources | 5
Ofﬁce of Healthcare Inspections | 8
         Combined Assessment Program Reviews | 8
         Community Based Outpatient Clinic Reviews | 8
         National Reports | 9
         Hotline Reports | 11
Ofﬁce of Healthcare Inspections and Ofﬁce of Audits and Evaluations Joint Review | 16
Ofﬁce of Audits and Evaluations | 17
         Veterans Health Administration Audit and Review | 17
         Veterans Beneﬁts Administration Audits and Evaluations | 17
         Veterans Beneﬁts Administration Beneﬁts Inspections | 19
         Other Review | 20
Ofﬁce of Investigations | 21
         Veterans Health Administration Investigations | 21
         Veterans Beneﬁts Administration Investigations | 25
         Other Investigations | 30
         Administrative Investigations | 33
         Employee-Related Investigations | 34
         Threats Made Against VA Employees | 37
         Fugitive Felons Arrested with OIG Assistance | 39
Ofﬁce of Management and Administration | 40
         Hotline Division | 40
Ofﬁce of Contract Review | 42
         Preaward Reviews | 42
         Postaward Reviews | 42
         Qui Tam Cases | 43
Other Signiﬁcant OIG Activities | 44
         Congressional Testimony | 44
         Special Recognition | 44
Appendix A: List of OIG Reports Issued | 45
Appendix B: Status of OIG Reports Unimplemented for Over 1 Year | 57
Appendix C: Inspector General Act Reporting Requirements | 66
Appendix D: Government Contractor Audit Findings | 68
Appendix E: American Recovery and Reinvestment Act Oversight Activities | 69
Appendix F: Restoring American Financial Stability Act Reporting Requirements | 70

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                     |3
Issue 65 | October 1, 2010 — March 31, 2011
                                                                                           Statistical Highlights

                                       For the Reporting Period October 1, 2010—March 31, 2011
                   Better Use of Funds                                                                                                       $2,313
 DOLLAR IMPACT




                   Fines, Penalties, Restitutions, and Civil Judgments                                                                        $480
                   Fugitive Felon Program                                                                                                    $117.2
   (in Millions)




                   Savings and Cost Avoidance                                                                                                $133.2
                   Questioned Costs                                                                                                            $3.8
                   Dollar Recoveries                                                                                                          $22.6
                   Total Dollar Impact                                                                                                     $3,069.8
                   Cost of OIG Operations1                                                                                                      $47
                   Return on Investment (Total Dollar Impact/Cost of OIG Operations)                                                           65:1
                   Reports Issued
                   Combined Assessment Program Reviews                                                                                               25
                   Community Based Outpatient Clinic Reviews (encompassing 39 facilities)                                                             5
                   Healthcare Inspections                                                                                                            31
                   Joint Review                                                                                                                       1
                   Audits and Reviews                                                                                                                10
                   Beneﬁts Inspections                                                                                                                6
                   Administrative Investigations                                                                                                      3
                   Preaward Contract Reviews                                                                                                         44
                   Postaward Contract Reviews                                                                                                        15
                   Total Reports Issued                                                                                                             140
                   Investigative Activities
                   Arrests (Not including Fugitive Felons)                                                                                          228
    OTHER IMPACT




                   Fugitive Felon Arrests                                                                                                            30
                   Fugitive Felon Apprehensions by Other Agencies with OIG Assistance                                                                19
                   Indictments                                                                                                                      172
                   Criminal Complaints                                                                                                               67
                   Convictions                                                                                                                      168
                   Pretrial Diversions and Deferred Prosecutions                                                                                     35
                   Administrative Sanctions                                                                                                         163
                   Cases Opened                                                                                                                     500
                   Cases Closed                                                                                                                     476
                   Healthcare Inspections Activities
                   Clinical Consultations                                                                                                              5
                   Administrative Case Closures                                                                                                       14
                   Hotline Activities
                   Cases Opened                                                                                                                   556
                   Cases Closed                                                                                                                   381
                   Administrative Sanctions                                                                                                        10
                   Substantiation Rate                                                                                                           46%
                   Contacts                                                                                                                    14,936
1. This ﬁgure does not include the $9.5 million operating cost for the Ofﬁce of Healthcare Inspections (OHI). We do not include this ﬁgure
because oversight work performed by OHI results in saving lives and not dollars.
                                                                                                          VA O f f i c e o f I n s p e c t o r G e n e r a l
  4|
                                                                                                      Issue 65 | October 1, 2010 — March 31, 2011
    VA and OIG Mission, Organization, and Resources


Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and compassion
and to be their principal advocate in ensuring that they receive the care, support, and recognition earned
in service to the Nation. The VA motto comes from Abraham Lincoln’s second inaugural address, given
March 4, 1865, “to care for him who shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest
Federal employer. For ﬁscal year (FY) 2011, VA is operating under a $124.2 billion budget, with over
300,000 employees serving an estimated 22.7 million living Veterans. To serve the Nation’s Veterans, VA
maintains facilities in every state, the District of Columbia, the Commonwealth of Puerto Rico, Guam, and
the Republic of the Philippines.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides
health care, the Veterans Beneﬁts Administration (VBA) provides monetary and readjustment beneﬁts,
and the National Cemetery Administration (NCA) provides interment and memorial beneﬁts. For more
information, please visit the VA Internet home page at www.va.gov.

VA Office of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1, 1978, to consolidate
audits and investigations into a cohesive, independent organization. In October 1978, the Inspector
General Act, Public Law (P.L.) 95-452, was enacted, establishing a statutory Inspector General (IG) in
VA. It states that the IG is responsible for: (1) conducting and supervising audits and investigations;
(2) recommending policies designed to promote economy and efﬁciency in the administration of, and to
prevent and detect criminal activity, waste, abuse, and mismanagement in VA programs and operations;
and (3) keeping the Secretary and Congress fully informed about problems and deﬁciencies in VA
programs and operations and the need for corrective action. The IG has authority to inquire into all VA
programs and activities as well as the related activities of persons or parties performing under grants,
contracts, or other agreements. Inherent in every OIG effort are the principles of quality management and
a desire to improve the way VA operates by helping it become more customer-driven and results-oriented.

OIG, with 610 employees from appropriations, is organized into three line elements: the Ofﬁces of
Investigations, Audits and Evaluations, and Healthcare Inspections, plus a contract review ofﬁce and a
support element. Anticipated FY 2011 funding for OIG operations provides $109 million from ongoing
appropriations. The Ofﬁce of Contract Review, with 25 employees, receives $4 million through a
reimbursable agreement with VA for contract review services including preaward and postaward contract
reviews and other pricing reviews of Federal Supply Schedule (FSS) and construction contracts. In
addition to the Washington, DC, headquarters, OIG has ﬁeld ofﬁces located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA programs
and the opportunities for improvement. In doing so, OIG staff strive to be leaders and innovators, and
to perform their duties fairly, honestly, and with the highest professional integrity. For more information,
please visit the OIG Internet home page at www.va.gov/oig.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          |5
Issue 65 | October 1, 2010 — March 31, 2011
                         VA and OIG Mission, Organization, and Resources

OIG Field Offices Map





                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
          6|
                                                        Issue 65 | October 1, 2010 — March 31, 2011
                                                                                                                                                                                                                                                                                                    Office of Contract
                                                                                                                                                                                                       Inspector General                                                                                 Review
                                                                                                               Congressional                         Special Assistant to the                          ______________                                      Counselor to the
                                                                                                                 Relations                             Inspector General                                                                                  Inspector General
                                                                                                                                                                                                    Deputy Inspector General                                                                       Information Release
                                                                                                                                                                                                                                                                                                          Office




                                                                                                                    Assistant Inspector General                                  Assistant Inspector General
                                                                                                                                                                                   Audits and Evaluations                          Assistant Inspector General                       Assistant Inspector General
                                                                                                                           Investigations
                                                                                                                                                                                                                                 Management and Administration                         Healthcare Inspections
                                                                                                                                                                                                                                ____________________________                    ________________________________
                                                                                                           Deputy Assistant            Deputy Assistant                    Deputy Assistant       Deputy Assistant




                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          Inspector General           Inspector General                   Inspector General      Inspector General              Deputy Assistant Inspector General                Deputy Assistant Inspector General
                                                                                                            Investigations              Investigations                  Audits and Evaluations Audits and Evaluations




Issue 65 | October 1, 2010 — March 31, 2011
                                                                                                           (HQ Operations)            (Field Operations)                (HQ/Field Operations)    (Field Operations)


                                                                                                                                               Northeast Field Office
                                                                                                                           Criminal                 Newark, NJ
                                                                                                   Analysis and                                                                                                                              Operations                                                        Program
                                                                                                                        Investigations         (Bedford, MA; Buffalo,                                                                                                         Consultation and
                                                                                                    Oversight                                                                                                                                                                                              Administration and
                                                                                                                                                NY; Manchester, NH;                                                                                                           Medical Review
                                                                                                                                                                                                                                                                                                            Special Projects
                                                                                                                                                 New York City, NY)                                       Management
                                                                                                                           Benefits                                                                        Operations
                                                                                                                                              Mid-Atlantic Field Office                                                                      Information
                                                                                                                            Fraud                Washington, DC                                                                            Technology and
                                                                                                                                                                                                                                                                                 Healthcare
                                                                                                                                                  (Columbia, SC;                                                                            Data Analysis                                                     Biostatistics
                                                                                                                                                                                                                 Audit                                                        Financial Analysis
                                                                                                                                                 Fayetteville, NC;
                                                                                                                         Computer                                                                              Planning
                                                                                                   Administrative                                 Pittsburgh, PA)
                                                                                                   Investigations          Crimes                                                 Operations
                                                                                                                        and Forensics                                                                                                     Administrative and
                                                                                                                                               Southeast Field Office              Divisions
                                                                                                                                                                                                                                              Financial                          Combined                  Community Based
                                                                                                                                                   Bay Pines, FL                   Dallas, TX               Quality
                                                                                                                                                                                                                                             Operations                         Assessment                 Outpatient Clinics/
                                                                                                                                              (Atlanta, GA; Nashville,           Washington, DC            Assurance
                                                                                                                         Health Care                                                                                                                                             Program                     Vet Centers
                                                                                                                                               TN; Tallahassee, FL;
                                                                                                                           Fraud               West Palm Beach, FL)

                                                                                                                                                Central Field Office                Financial              Statistical
                                                                                                   Investigative                                                                                                                               Hotline
                                                                                                                                                    Chicago, IL                      Audits                Operations                                                                       Regional Offices
                                                                                                   Data Systems
                                                                                                                        Fugitive Felon                                                                                                                                                        Atlanta, GA
                                                                                                   and Analysis                               (Cleveland, OH; Denver,
                                                                                                                          Program                                                                                                                                                            Baltimore, MD
                                                                                                                                               CO; Kansas City, MO)
                                                                                                                                                                                    Benefits                                                                                                 Bay Pines, FL
                                                                                                                                             South Central Field Office            Inspection                                                                                                 Bedford, MA
                                                                                                                           Forensic                                                                                                            Budget                                         Chicago, IL
                                                                                                                                                    Dallas, TX                   (Bay Pines, FL;
                                                                                                                          Document                                                                                                                                                             Dallas, TX
                                                                                                                          Laboratory          (Houston, TX; Jackson,             San Diego, CA)
                                                                                                                                               MS; Little Rock, AR)                                                                                                                           Denver, CO
                                                                                                       Legal                                                                                                                                                                                Kansas City, MO
                                                                                                      Counsel                                                                                                                                                                               Los Angeles, CA
                                                                                                                                               Northwest Field Office                                              Operations Divisions
                                                                                                                                                                                   Information                        Atlanta, GA                                                            San Diego, CA
                                                                                                                                                San Francisco, CA
                                                                                                                                                                                 Technology and                                                                                               Seattle, WA
                                                                                                                                                   (Seattle, WA;                                                     Bay Pines, FL
                                                                                                                                                                                  Security Audits                     Bedford, MA                                                           Washington, DC
                                                                                                                                                  Spokane, WA)
                                                                                                                                                                                   (Austin, TX;                       Chicago, IL
                                                                                                                                                                                 Washington, DC)
                                                                                                                                                                                                                                                                                                                                 VA and OIG Mission, Organization, and Resources




                                                                                                                                                                                                                    Kansas City, MO
                                                                                                                                                Western Field Office
                                                                                                                                                                                                                    Los Angeles, CA
                                                                                                                                                 Los Angeles, CA
                                                                                                                                                                                                                      Seattle, WA
                                                                                                                                                 (Las Vegas, NV;
                                                                                                                                                   Phoenix, AZ;
                                                                                                                                                  San Diego, CA)
                                                                                                   4/18/2011                                                                                                                                                                           INSPECTOR GENERAL




                     |7
                                                                                                                                                                                                                                                                                     Department of Veterans Affairs
                                                  Office of Healthcare Inspections
The health care that VHA provides Veterans is consistently ranked among the best in the Nation, whether
those Veterans are recently returned from Operation Enduring Freedom/Operation Iraqi Freedom/
Operation New Dawn or are Veterans of other periods of service with different patterns of health care
needs. OIG oversight helps VHA maintain a fully functional program that ensures high-quality patient
care and safety, and safeguards against the occurrence of adverse events. The OIG Ofﬁce of Healthcare
Inspections focuses on quality of care issues in VHA and assesses medical outcomes. During this
reporting period, OIG published 7 national healthcare inspections; 24 Hotline healthcare inspections;
1 joint review; 25 Combined Assessment Program (CAP) reviews; and 5 Community Based Outpatient
Clinic (CBOC) reports, covering 39 facilities, to evaluate the quality of care.

Combined Assessment Program Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are provided to Veterans.
CAP reviews provide cyclical oversight of VHA health care facilities; their purpose is to review selected
clinical and administrative operations and to conduct crime awareness brieﬁngs. During this reporting
period, OIG issued 25 CAP reports, which are listed in Appendix A. Topics reviewed in a facility CAP may
vary based on the facility’s mission. Topics generally run for 6–12 months; the CAP topics in current use
since October 2010 are:
          • 	 Coordination of care.                       • Medication management.
          • 	 Environment of care.                        • Physician credentialing and
          • 	 Management of multidrug-resistant             privileging (C&P).
              organisms.                                  • Quality management (QM).
          • 	 Management of test results.

When ﬁndings warrant more global attention, summary or “roll up” reports are prepared at the conclusion
of a topic’s use.

Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany House Resolution 6599, Military Construction,
Veterans Affairs, and Related Agencies Appropriation Bill, FY 2009, OIG initiated a systematic review of
VHA CBOCs. The purpose of the cyclical reviews is to assess whether CBOCs are operated in a manner
that provides Veterans with consistent, safe, high-quality health care in accordance with VA policies and
procedures. The CBOC inspection process consists of four components: CBOC site-speciﬁc information
gathering and review, medical record reviews for determining compliance with VHA performance
measures, onsite inspections, and CBOC contract review. The objectives of the reviews are to determine:
(1) whether CBOC performance measure scores are comparable to the parent VA Medical Center (VAMC)
or Health Care System (HCS) outpatient clinics (OPCs), (2) whether CBOC providers are appropriately
credentialed and privileged in accordance with VHA policy, (3) whether appropriate notiﬁcation and follow-
up action are documented in the medical record when critical laboratory test results are generated,
(4) the extent patients are notiﬁed of normal laboratory test results, (5) whether CBOCs are in compliance
with standards of operations according to VHA policy in the areas of environmental safety and emergency
planning, (6) whether the CBOC primary care and mental health (MH) contracts were administered in
accordance with contract terms and conditions, and (7) whether primary care active panel management
and reporting are in compliance with VHA policy.


                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
 8|
                                                                             Issue 65 | October 1, 2010 — March 31, 2011
Office of Healthcare Inspections
During this reporting period, OIG performed 39 CBOC reviews throughout 13 Veterans Integrated
Service Networks (VISNs). These reviews were captured in ﬁve reports. We made recommendations for
improvements at the following facilities:

•     VISN 1: Stamford and Waterbury, CT; Framingham, MA
•     VISN 4: Spring City and Springﬁeld, PA
•     VISN 6: Charlottesville, Danville, Fredericksburg, and Lynchburg, VA
•     VISN 7: Savannah, GA; Greenville, North Charleston (Goose Creek), and Rock Hill, SC
•     VISN 8: Sarasota and Sebring, FL
•     VISN 12: Elgin and Oak Lawn, IL; Loyal and Wisconsin Rapids, WI
•     VISN 15: Paragould, AR, and Salem, MO
•     VISN 16: Jennings and Lafayette, LA
•     VISN 17: Bridgeport (Decatur) and Sherman, TX
•     VISN 18: Buckeye, Cottonwood, Lake Havasu City, and Show Low, AZ; Espanola and Farmington, NM
•     VISN 19: Pocatello, ID, and Nephi, UT
•     VISN 20: Caldwell and Twin Falls, ID
•     VISN 21: Modesto and Sonora, CA; Kona and Maui, HI

National Reports
First Year of OIG CBOC Reviews Find VAMCs Need to Improve Oversight
OIG began a systematic review of VHA CBOCs, reviewing 58 facilities between April 2009 and February
2010. Overall, the CBOCs generally met VHA directives and guidelines and appear to be providing a
quality of care that is not substantially different from parent VAMCs. No statistically signiﬁcant differences
were found between VA-staffed and contract CBOCs overall. However, OIG noted several opportunities
to improve the parent facilities’ oversight of CBOCs and made seven recommendations to the Under
Secretary for Health.

CAP Reviews Show Need for More Improvements Cleaning Reusable Medical Equipment
OIG evaluated reusable medical equipment (RME) processes at 45 facilities during CAP reviews
conducted January 1–September 30, 2010, to determine whether facilities complied with VHA standards
for RME sterilization and high-level disinfection, provided and documented annual training for employees
performing RME reprocessing activities, and assessed and documented annual competencies for
employees performing RME reprocessing activities. VHA facilities recognized the importance of safe
and consistent RME practices and had taken steps to improve compliance; however, problems in RME
practices continue to occur. OIG found that compliance with applicable RME requirements needs to
improve in the following areas: standard operating procedures, training and competency assessment, ﬂash
sterilization, environment, and reporting to the Executive Committee of the Medical Staff. OIG issued six
recommendations to correct the ﬁndings.

Radiation Safety Evaluated in VHA Facilities
At the request of the House Committee on Veterans’ Affairs, OIG evaluated program oversight and quality
assurance processes for diagnostic and therapeutic radiation procedures at VHA facilities. The review
focused on four areas associated with the greatest potential for harm to Veterans: radiation therapy (RT),
computed tomography (CT), ﬂuoroscopy, and nuclear medicine. VHA has disseminated information in an


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           |9
Issue 65 | October 1, 2010 — March 31, 2011
                                                 Office of Healthcare Inspections
effort to reduce CT dose variability, but OIG found no oversight of actual doses being delivered. OIG’s
review of patients with the highest cumulative radiation doses from CT scans showed that neither patients
nor providers had data about cumulative radiation exposure available to them at the time of clinical
decision making. OIG also discovered that patients were not informed that CT scans may cause cancer.
No issues were found in the use of ﬂuoroscopy or nuclear medicine. OIG made ﬁve recommendations to
improve operations.

VHA Medical License Tracking Needs Improvement
OIG evaluated the systems and processes designed to ensure that physicians’ medical licenses were
current and in good standing in VHA medical facilities. OIG determined that the processes used to
capture and monitor medical license expiration dates were inconsistent and fragmented across VHA
medical facilities. OIG made two recommendations for improvement.

VHA Magnetic Resonance Imaging Safety Program Needs Improvement
OIG evaluated VHA facilities’ magnetic resonance imaging (MRI) safety programs by determining whether
facilities implemented and maintained MRI safety and infection control policies and procedures, provided
adequate employee training, completed appropriate patient screening and informed consents, and
conducted risk assessments of MRI suites. Inspectors evaluated 50 MRI suites at 43 facilities during
CAP reviews conducted from July 1, 2009, through September 30, 2010. VHA facilities had recognized
the importance of safety in the MRI suites and had implemented adequate policies and procedures. OIG
identiﬁed four areas where compliance with MRI safety requirements and guidelines needs to improve,
including training. The Under Secretary for Health concurred with the recommendations and provided
implementation plans with target completion dates.

Nationwide Review of VAMC QM Finds Signiﬁcant Weaknesses in Four Facilities
OIG completed an evaluation of 55 VAMCs to determine whether they had comprehensive, effective QM
programs designed to monitor patient care activities and coordinate improvement efforts and whether
VHA facility senior managers actively supported QM efforts and appropriately responded to QM results.
OIG conducted this review during CAP reviews performed across the country from October 1, 2009,
through September 30, 2010. Although all 55 facilities had established comprehensive QM programs and
performed ongoing reviews and analyses of mandatory areas, four facilities had signiﬁcant weaknesses
including the Memphis, TN, VAMC; the El Paso, TX, HCS; the Carl Vinson VAMC, Dublin, GA; and the
Providence, RI, VAMC. To improve operations, OIG recommended that VHA reinforce requirements for
comprehensive utilization management programs; thorough review of individual resuscitation episodes
and trending of aggregate data; and life support training policies, monitoring, and actions. OIG also
recommended that facility senior managers review the mortality data provided to them in Inpatient
Evaluation Center reports and take actions as appropriate when negative trends are identiﬁed.

Improvements Noted in Suicide Prevention Safety Plans in VHA Facilities
At the request of VHA, OIG conducted a review to re-evaluate the extent to which VHA MH providers
consistently developed suicide prevention safety plans (SPSPs) for patients assessed to be at high risk
for suicide. OIG evaluated SPSP practices at 45 facilities during CAP reviews conducted January 1–
September 30, 2010. VHA facilities recognized the importance of developing comprehensive, timely
SPSPs for high-risk patients. Additionally, VHA issued appropriate timeframes for initiating SPSPs.
However, despite VHA’s efforts to comply with suicide prevention program requirements, problems
with SPSP development continue to occur. OIG recommended that the Under Secretary for Health,

                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
10 |
                                                                           Issue 65 | October 1, 2010 — March 31, 2011
Office of Healthcare Inspections
in conjunction with VISN and facility senior managers, ensure that MH providers develop and timely
document SPSPs that meet all applicable criteria.

Hotline Reports
Marion, Illinois, VAMC Shows Substantial Improvement in Certain Areas
An OIG re-evaluation of the Marion VAMC QM program found that current senior leaders have
implemented and supported a comprehensive QM program and that the selected C&P processes reviewed
were in current compliance. The results of this re-evaluation indicated substantial improvement in the QM
and selected C&P areas cited for noncompliance in evaluations conducted by OIG in 2008 and 2009. The
VISN Director concurred with the conclusions and OIG made no recommendations.

Review Conducted of a Deceased Veteran’s Quality of Care at a VAMC
At a Congressman’s request, OIG conducted an inspection to assess the quality of a Veteran’s care at a
VAMC and to determine if the events leading to the Veteran’s death were connected to any issues with
the quality of care. OIG’s review identiﬁed three areas for improvement. Speciﬁcally, the VAMC needs to
ensure smooth transitions when there are changes in Veterans’ providers and/or care settings, improve
internal communications between providers and external communications with Veterans and other parts
of the VA system, and review the procedures of the Disruptive Behavior Committee. OIG issued four
recommendations to the VAMC leadership to correct the ﬁndings.

Improvements Recommended for Prescription and Stafﬁng Practices at Hampton, Virginia, VAMC
At the request of Senator Jim Webb, OIG conducted a healthcare inspection of quality of care issues
including prescribing practices, pain management, and stafﬁng in primary care (PC) at the Hampton, VA,
VAMC. OIG did not substantiate that PC providers were forced to write prescriptions for patients not under
their care; however, inspectors did conﬁrm that patients could request a new provider if the original provider
refused to write narcotic prescriptions. OIG also substantiated that the Physical Therapy (PT) department
was understaffed, but did not substantiate that there was a 6-month backlog of appointments or that PT
staff were not trained in pain management. Lastly, OIG determined that managers took appropriate steps
to protect staff against threats made against the VAMC. OIG recommended that all prescribing providers
be trained in the process for prescribing medications for temporary or newly assigned patients, and that
managers evaluate all options for recruitment and retention of physical therapists. Management agreed
with the ﬁndings and recommendations, and provided acceptable implementation plans.

Better Documentation of Resident Bathing Needed at Hampton VAMC Community Living Center
Also at the request of Senator Webb, OIG conducted a separate inspection of the Hampton VAMC to
determine the validity of anonymous allegations regarding quality of care, personnel, and other issues in
the community living center (CLC). OIG substantiated the allegation that weekly showers do not occur
for all residents; however, residents who do not receive weekly showers receive alternate types of weekly
bathing. OIG also substantiated that some staff members were habitually tardy without disciplinary action;
however, CLC managers had addressed this issue prior to OIG’s review. OIG did not substantiate the other
allegations, and recommended that the VAMC Director require that CLC Nurse Managers monitor accurate
documentation of resident bathing.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 11
Issue 65 | October 1, 2010 — March 31, 2011
                                                   Office of Healthcare Inspections
OIG Substantiated Inadequate Communication of Discharge Planning at Hampton VAMC
At the request of Senator Jim Webb, OIG reviewed the validity of allegations regarding quality of care
and communication at the Hampton VAMC. OIG substantiated that VAMC managers and the hospitalist
did not adequately communicate with the complainant. However, OIG determined that efforts to improve
communications between management, clinical staff, and the complainant were effective; therefore,
OIG made no recommendations. OIG did not substantiate allegations that Emergency Department (ED)
or inpatient staff provided poor patient care; however, OIG did determine that staff did not involve the
complainant, who was the caregiver and held Power of Attorney for the patient, in the discharge planning
process or provide complete and timely discharge instructions and medications to the patient and his son.
OIG made one recommendation to address this ﬁnding.

Hospice and Palliative Care Training Needed for Emergency Room Staff at Hampton, Virginia,
VAMC
Evaluating the validity of four allegations made against the Hampton, VAMC, OIG substantiated the
allegation that an emergency room (ER) provider did not perform a complete evaluation. OIG also
substantiated the allegation that staff did not provide the Veteran with hospice care when requested. The
complainant alleged that there were hospice beds available at the facility, but OIG did not substantiate the
allegation. Furthermore, OIG could not conﬁrm or refute the allegation that staff treated the Veteran and
spouse poorly. OIG recommended that all ER staff receive training in hospice and palliative care, active
case ﬁnding for Veterans in need of hospice and palliative care occurs, and the facility conducts hospice
and palliative care education activities for all clinical staff.

Northport, New York, VAMC Nuclear Medicine Residency Training Program Discontinued Due to
OIG Findings
OIG conducted an inspection to determine the validity of ﬁve allegations regarding Nuclear Medicine
Service at the Northport, NY, VAMC. As a result of the inspection, the VAMC Director discontinued
the nuclear medicine residency training program in June 2010 and removed the two unlicensed trainee
physicians. In addition, the VHA Ofﬁce of Academic Afﬁliations discontinued the funding for nuclear
medicine resident positions at the VAMC.

Problems Cleaning Dental Equipment Persist at the St. Louis, Missouri, VAMC
At the request of the House Committee on Veterans’ Affairs, OIG conducted a review to determine the
sequence of events involving alleged improperly cleaned and sterilized dental RME, errors in reprocessing
or sterilization, actions taken to correct deﬁciencies, and decisions related to patient notiﬁcation of
breaches in dental equipment reprocessing or sterilization at the John Cochran Division (JCD) of the St.
Louis, MO, VAMC. Responsible managers did not verify the adequacy of RME reprocessing practices, nor
did they assure that corrective actions were consistently implemented in response to VHA guidance and
the Infectious Disease Program Ofﬁce report. However, OIG concluded that the occurrence of a patient-
to-patient transmission of a blood-borne infectious disease at the JCD was unlikely. OIG also concluded
that the VAMC promptly set-up and staffed its Dental Review Clinic, made appropriate efforts to contact
identiﬁed patients, and provided adequate support and follow-up to patients. Three recommendations were
made to improve operations.




                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
12 |
                                                                              Issue 65 | October 1, 2010 — March 31, 2011
Office of Healthcare Inspections
Allegation That Bladder Removed without Consent Unfounded at St. Louis VAMC
OIG reviewed a patient’s allegations that the JCD of the St. Louis, VAMC surgically removed his bladder
and created a neobladder (a bladder using a portion of intestine) in 2007 without his consent. He also
alleged that the VAMC did not provide pain medication after the surgery. OIG did not substantiate the
allegations; however, it was determined that a Minneapolis, MN, VAHCS radiologist incorrectly documented
that the patient’s bladder, seen on a September 2009 ultrasound, was a neobladder. Additionally, staff at
the VAMC did not consistently document pain assessments as required by local policy. OIG recommended
that the HCS Director of Radiology and Chief of Staff correct the medical record and disclose to the patient
the facts surrounding an incorrect 2009 ultrasound report. OIG also recommended that VAMC staff
document patient pain assessments as required.

Allegations of Telemetry Unit Issues Not Substantiated at St. Louis VAMC
An evaluation was performed by OIG to determine the validity of allegations related to the availability
of personal protective equipment (PPE) and blood pressure machines, staff compliance with isolation
precautions, and functionality of equipment on the telemetry unit at the JCD of the St. Louis VAMC. OIG
substantiated that PPE was not always available on the telemetry unit and some equipment needed for
patient care on the telemetry unit was non-functional at the time of the complaint; however, actions to
resolve the issues were ongoing or were addressed prior to OIG’s visit. OIG also substantiated that blood
pressure machines may not have always been available on the telemetry unit; however, OIG determined
that staff could secure additional machines through Logistics Service as needed for patient care.
Allegations that staff failed to follow proper isolation precautions when caring for infectious patients were
not substantiated. OIG also noted that managers established an executive ofﬁce action line for staff to
report their concerns to leadership. No recommendations were made.

CLC Students in Need of Additional Safety Training at Palo Alto, California, HCS
An OIG review evaluated the merit of an allegation regarding the quality of care a Veteran received at
the Palo Alto, CA, HCS CLC. OIG substantiated that the Veteran was left unattended on a patio, but did
not substantiate that he was sunburned. An occupational therapy student left him on the patio without
informing nursing staff. The Veteran was in the sun for approximately 2 hours and experienced a heat
reaction before staff discovered him. Clinical staff responded appropriately, and he sustained no long-
term effects. After the incident occurred, the CLC Manager took appropriate actions, initiated additional
safety measures, and educated staff on heat exposure. However, OIG determined that students of other
disciplines did not receive the same training; therefore, OIG recommended that all students who interact
with CLC residents receive safety training.

Delays in Test Results, Diagnoses Found at VA Northern Indiana HCS, Ft. Wayne, Indiana
A review was conducted by OIG to determine the validity of allegations regarding quality of care and
delay in treatment of a patient at the VA Northern Indiana HCS, Fort Wayne, IN. OIG substantiated that
there were delays in notiﬁcation of the patient’s test results and diagnosis of Myasthenia Gravis (MG),
with missed opportunities for follow-up care. Allegations that a delay in diagnosis and treatment may
have led to multiple ER visits and a subsequent hospital admission were also substantiated. Finally, OIG
substantiated that a provider prescribed an antibiotic that exacerbated the patient’s MG. OIG did not
substantiate that the patient’s complaints of infection were ignored and could neither conﬁrm nor refute that
nurses did not use aseptic technique when connecting intravenous tubing or that there were signiﬁcant
delays in access to primary care. OIG recommended that the facility complete an external peer review for
the appropriateness of care.

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 13
Issue 65 | October 1, 2010 — March 31, 2011
                                                    Office of Healthcare Inspections
Questioned Accuracy of Chemotherapy Dosage Software Not Substantiated at Fargo, North
Dakota, VAMC
OIG reviewed the validity of allegations made to the OIG Hotline Division regarding unresolved software
problems with the electronic ordering of chemotherapy at the Fargo, ND, VAMC. The complainant
speciﬁcally alleged that a patient received an increased dose of chemotherapy because of software
problems with a recently installed electronic ordering program (IntelliDose®), and that the dosage side
effects required the patient to be admitted to the intensive care unit. OIG did not substantiate the speciﬁc
allegations; however, inspectors did determine that staff pharmacists were uncomfortable verifying
IntelliDose® chemotherapy orders and voiced concerns to managers. The Chief of Staff responded to
concerns and instructed staff that oncologists would assume all responsibility for verifying dosages of
chemotherapy. OIG made no recommendations.

Allegations Not Substantiated Against Boise, Idaho, VAMC Wound Care Management
OIG evaluated the validity of allegations that VA physicians at the Boise, ID, VAMC self-referred patients
for wound care to private practices and skilled nursing facilities in violation of conﬂict of interest rules.
The complainant’s allegations were not substantiated. The inspection revealed that there is only one
community facility capable of providing hyperbaric oxygen therapy (HBOT) to Veterans within
160 miles. VA physicians employed by the community facility providing HBOT and wound care were
salaried employees. The facility staff had previously reviewed conﬂict of interest concerns and involved
Regional Counsel in the decision to utilize this community facility. OIG made no recommendations.

Review Finds Opportunities to Improve Communication and Suicide Risk Training at Dayton, Ohio,
VAMC
At the request of Congressman Steven Buyer, OIG evaluated the care of a patient who committed suicide
on the grounds of the Dayton, OH, VAMC after leaving the ED. OIG found that the ED staff made
reasonable efforts to provide treatment to the patient in the hours preceding his suicide, and providers
made appropriate efforts to manage the patient’s pain and treat his MH conditions from August 2008 to
April 2010. However, OIG found opportunities to improve communication and suicide risk management
training. OIG recommended that the VISN Director and VAMC Director require providers to optimize
appropriate “hand-off” and intra-staff communication and require clinical staff to complete VHA mandatory
suicide risk management training.

Alleged Issues in Fee Basis Care at the Martinsburg, West Virginia, VAMC
The purpose of OIG’s review was to determine the validity of an allegation that the Interim Chief of
Staff denied Fee Basis Service (FB) consults because of cost at the Martinsburg, WV, VAMC. OIG did
not substantiate the allegation. However, OIG did identify a process during the review that required
improvement and recommended that staff receive education on the VAMC’s process for FB approval.

Allegations Against Clinical and Administrative Staff Not Substantiated at Alexandria VAMC,
Pineville, Louisiana
OIG conducted an evaluation to determine the validity of allegations regarding quality of care, altered
medical records, intimidation, and management responsiveness at the Alexandria VAMC, Pineville, LA.
OIG did not substantiate the allegations made by the seven complainants, but rather determined that the
treatment provided to all patients included in the review was appropriate. OIG found no evidence that the
treatment provided by the physician in question was improper or harmful. Additionally, VA Police acted
properly to protect the patients and VAMC staff, and management took acceptable actions to address
patient and family concerns. OIG made no recommendations.
                                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
14 |
                                                                                Issue 65 | October 1, 2010 — March 31, 2011
Office of Healthcare Inspections
Allegations of Imminent Danger Not Substantiated at Southern Arizona VA HCS, Tucson, Arizona
In response to a Hotline allegation, OIG investigated allegations of unsafe care and imminent danger to
patients at the Southern Arizona VA HCS in Tucson, AZ. OIG substantiated that there was unsafe triage
of patients in the ED, because staff did not always evaluate every patient before discharge as required by
policy. OIG did not substantiate the other allegations, but did note opportunities for improvement in the
areas of clinic operations, organizational improvement, and care of patients with chronic pain. OIG made
two recommendations to correct the ﬁndings.

Allegations of Poor Quality of Care in RT Substantiated at Long Beach, California, VAHCS
OIG inspected the Long Beach, CA, VAHCS to determine the validity of allegations regarding RT.
Allegations included inappropriate care, lack of competence of radiation oncologists, lack of communication
with facility leadership, and a hostile work environment. OIG substantiated the allegation of poor care for
1 of the 10 patients reported and identiﬁed medical record documentation deﬁciencies for 9 of the
10 patients. Allegations that facility leaders were not aware of adverse patient outcomes in RT were also
substantiated, and OIG found that action was not taken to correct deﬁciencies identiﬁed in peer reviews.
OIG did not substantiate the allegation that radiation oncologists lacked competence and did not address
the allegation of a hostile work environment in this report. Four recommendations were made to correct
the ﬁndings.

Temporary Lodging Program Policies Needed at Martinez, California, OPC and Center for
Rehabilitation and Extended Care
OIG conducted an inspection to determine the validity of allegations regarding quality of care issues for six
patients at the Martinez, CA, OPC and Center for Rehabilitation and Extended Care. OIG substantiated
the allegations regarding inadequate care for two of the six patients reviewed, and also substantiated the
allegation that the center lacked the infrastructure in which to provide quality care for observation patients.
However, OIG determined that system managers took appropriate actions; therefore, OIG did not make
any recommendations regarding these allegations. OIG did not substantiate the allegation that surgical
outpatients were inappropriately placed in a contracted community setting without adequate care after their
procedures. One recommendation was made to the facility for the development and implementation of
local temporary lodging or Hoptel Program policies and procedures.

Allegations of Quality of Care Issues Not Substantiated at Captain James A. Lovell Federal Health
Care Center, North Chicago, Illinois
OIG conducted an inspection to determine the validity of allegations regarding medical education physician
trainee supervision and the quality of care provided by a physician at the Captain James A. Lovell Federal
Health Care Center in North Chicago, IL. OIG substantiated that a trainee worked prior to the contract start
date. However, there was no harm to patients, and senior managers took appropriate actions to ensure
students are scheduled according to their contract. The inspection found that senior managers did not
grant privileges based on documented clinical competence and the Executive Committee of the Medical
Staff meeting minutes did not reﬂect the rationale used to support the physician’s re-privileging. OIG
could neither conﬁrm nor refute that the physician was not competent to perform or supervise a speciﬁc
procedure. OIG did not substantiate that the physician failed to review patient image test results prior
to co-signing student report documentation, co-signed a report that contained an incorrect diagnosis, or
neglected patient care duties. One recommendation was made to correct the ﬁndings.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           | 15
Issue 65 | October 1, 2010 — March 31, 2011
                                                   Office of Healthcare Inspections
Allegations Regarding Customer Care and Satisfaction Not Substantiated at Southern Arizona
VAHCS, Tucson, Arizona
OIG conducted an inspection to determine the validity of allegations regarding customer care and
satisfaction at the Casa Grande, AZ, CBOC, which is part of the Southern Arizona VAHCS in Tucson, AZ.
OIG substantiated that a patient came to the CBOC for evaluation of bleeding, and a Licensed Practical
Nurse (LPN) took the patient’s vital signs but did not document them in the medical record. However, OIG
did not substantiate that the LPN referred the patient to a local ER, two patients received inappropriate
examinations, CBOC staff harass or treat patients rudely, or patient complaints about speaking with
pharmacy representatives have increased. Allegations that CBOC staff harassed a patient or that CBOC
providers have abandoned that patient were also not substantiated. Since steps were taken to correct
documentation issues at the CBOC, OIG made no recommendations.

Alleged Continuity of Care Issues for Homeless Los Angeles, California, Veterans Not
Substantiated
OIG inspected the VA Greater Los Angeles, CA, HCS to determine the validity of allegations that staff
discharged a homeless Veteran to a shelter against his will and without the ability and appropriate supplies
to care for himself. OIG did not substantiate the allegations. At the time of discharge, staff appropriately
determined that the patient had the capacity to make decisions, was medically stable, and was able to
care for himself. OIG found that staff made multiple and reasonable efforts to negotiate acceptable and
safe disposition plans with the patient while also respecting his right to make his own decisions. No
recommendations were issued.




       Office of Healthcare Inspections and Office of Audits and
                                     Evaluations Joint Review
Review of Combat Stress in Veterans Receiving VA Health Care and Disability Beneﬁts
As directed by the Conference Report to Accompany the Consolidated Appropriations Act of 2010,
OIG conducted a review to assess VA’s capacity to address combat stress in women Veterans. Using
integrated data from VA and the Department of Defense, OIG observed that VA generally diagnosed
higher proportions of female Veterans with MH conditions after separation, while lower proportions were
diagnosed with the speciﬁc MH condition of post-traumatic stress disorder (PTSD) and traumatic brain
injury (TBI). OIG also identiﬁed several issues pertaining to military sexual trauma (MST) that require the
attention of VBA’s leadership. In addition, OIG found that most regional ofﬁces do not post signs informing
Veterans about the services available through the Women Veterans Coordinators. Furthermore, many
of the Women Veterans Coordinators and claims processors that OIG spoke with stated they often felt
unprepared to communicate effectively with Veterans regarding their MST-related disability claims. OIG
found that although VBA does provide some instruction on processing MST-related claims as part of PTSD
training, they have not assessed the feasibility of requiring additional MST-related training and testing. OIG
issued four recommendations to VBA to address the identiﬁed issues.



                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
16 |
                                                                              Issue 65 | October 1, 2010 — March 31, 2011
Office of Audits and Evaluations

Veterans Health Administration Audit and Review
OIG audits and reviews of VHA programs focus on the effectiveness of health care delivery for Veterans.
These audits and evaluations identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.

Audit Finds Veterans at Risk of Not Receiving Needed Nursing Home Care in VHA’s State Home
Per Diem Program
In an audit to evaluate whether VAMCs reimbursed State Veterans Homes (SVHs) accurately for providing
care to eligible Veterans and provided access to care for Veterans denied admittance to SVHs, OIG
found that VAMCs accurately reimbursed SVHs for Veteran nursing home care. However, OIG also found
that two states were denying care to eligible Veterans and none of the eight VAMCs OIG visited had
strengthened their outreach efforts to ensure Veterans denied access to SVH nursing home care obtained
access to care from other VA sources. In addition, of 400 sampled Veterans, VAMCs did not properly
document or ensure timely SVH submission of eligibility determinations for 32 percent of Veterans and
medical care approval requests for 55 percent of Veterans. There is an increased risk that Veterans will not
receive needed nursing home care and SVHs will not provide appropriate medical care. OIG made
10 recommendations to improve operations.

Review Finds Inappropriate Retention Incentive Payments at Providence, Rhode Island, VAMC
In response to a Hotline allegation, OIG reviewed the Providence, RI, VAMC compliance with VA policy on
employee retention incentive payments. Retention incentive payments were not adequately justiﬁed and
supported in accordance with VA policy, indicating a lapse in the management of retention incentives. OIG
questioned the appropriateness of payments made in 17 of the 20 cases reviewed, which together totaled
$179,000. Approving ofﬁcials did not exercise due diligence when approving the payments since there
was not adequate justiﬁcation provided. Further, some retention incentives were misused to supplement
employees’ pay in order to compensate for perceived inconsistencies in ofﬁcial position classiﬁcation
decisions. OIG made ﬁve recommendations to correct the ﬁndings and increase controls to ensure future
compliance with VA policy.

Veterans Benefits Administration Audits and Evaluations
OIG performs audits and evaluations of Veterans’ beneﬁts programs focusing on the effectiveness
of beneﬁts delivery to Veterans, dependents, and survivors. These audits and evaluations identify
opportunities for enhancing the management of program operations and provide VA with constructive
recommendations to improve the delivery of beneﬁts.

Weaknesses in 100 Percent Disability Evaluation Could Cost VA $1 Billion Over Next 5 Years
An OIG audit of VBA concluded that, despite numerous audit and inspection reports since 2004, VBA
continues to lack adequate procedures to process 100 percent disability evaluations correctly or monitor
and adjust temporary 100 percent disability evaluations. In addition, VA Regional Ofﬁce (VARO) staff did
not always comply with VBA regulations when granting permanent evaluations, entitlements to special
monthly compensation, or ancillary beneﬁts. OIG projected that since January 1993, VBA paid Veterans
a net amount of approximately $943 million without adequate medical evidence. Without corrective
actions, VBA could make unsupported payments valued at $1.1 billion over the next 5 years. The Acting
Under Secretary for Beneﬁts did not agree with the ﬁndings, particularly as they relate to the projected
overpayment amounts; however, he did agree to implement the recommendations and provided responsive
implementation plans.
VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 17
Issue 65 | October 1, 2010 — March 31, 2011
                                               Office of Audits and Evaluations

Audit Identiﬁes $2.9 Million in Unrecoverable Overpayment of Education Beneﬁts
OIG conducted an audit to determine whether VBA processed claims and payments for students and
schools timely and accurately under the Post-9/11 GI Bill. Although claims processing times were slow
throughout the fall 2009 school term, they were generally accurate and at or near the VBA performance
standard. Processing delays and some systemic errors occurred due to limited software functionality
and inadequate stafﬁng. VBA underpaid $294,000 in housing allowances and overpaid $2.9 million for
books and supplies. VBA will need to pay the housing underpayments; however, VA regulations state that
recipients are not liable for education assistance overpayments that are administrative errors. VBA has
begun implementing corrective actions to address these issues which, if implemented consistently and
successfully, should reduce the claim delays and systemic payment issues. OIG recommended that the
Acting Under Secretary for Beneﬁts address the education beneﬁts payment errors identiﬁed during the
audit.

Audit Finds Changing Priorities, Overlapping Systems Requirements Continue to Challenge
Veterans Service Network
OIG conducted an audit of the Veterans Service Network (VETSNET), a replacement system to
consolidate compensation and pension beneﬁts processing, to determine whether VA implemented
effective controls to address previously identiﬁed program governance deﬁciencies; met schedule, cost,
and performance goals for the program; and implemented effective change controls to support the
planning, testing, and implementation of the VETSNET suite of applications. OIG found that VA addressed
prior program governance deﬁciencies by establishing oversight groups, risk management processes, and
software development gate reviews to provide greater visibility and control of VETSNET program activities.
Despite these improvements, VETSNET faces the continuing challenge of managing competing mandates
and new systems initiatives that have repeatedly changed the scope and direction of the program. These
changes have adversely affected achieving schedule, cost, and performance goals over the life of the
VETSNET program. Additionally, planned system functionality enhancements remain unaddressed. OIG
recommended the Ofﬁce of Information and Technology (OI&T) clarify goals, align resources, establish
a schedule for accomplishing the goals of VETSNET, and implement improved processes to address
software development deﬁciencies.

Timelier Income Veriﬁcation Can Save Pension Management Centers $205 Million
OIG reviewed VBA’s Pension Management Centers (PMCs) to determine if pensioners receive timely
beneﬁt payments. OIG also assessed the implementation of prior recommendations from its FY 2007
audit of VBA’s Pension Maintenance Program. The review found VBA did not timely process original
death pension claim beneﬁts because PMCs were not adequately prepared to process additional claims
added to their workload from VAROs in FY 2008 and 2009. In addition, VBA did not timely process
Internal Revenue Service (IRS) and Social Security Administration (SSA) Income Veriﬁcation Matches,
which resulted in overpayments. Lastly, VBA’s PMC performance measures in the 2010 Performance
and Accountability Report did not adequately measure all the work processed. OIG made four
recommendations to correct the ﬁndings, with one recommendation potentially saving $205 million in
overpayments.




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
18 |
                                                                            Issue 65 | October 1, 2010 — March 31, 2011
Office of Audits and Evaluations

$128.5 Million at Risk Without Better Controls Over Retroactive and One-Time Payments to
Veterans Unable to Manage Own Finances
To determine if VBA properly managed retroactive and one-time payments of $10,000 or greater awarded
to incompetent beneﬁciaries served by legal custodians, OIG conducted an audit of VBA’s Fiduciary
Program. OIG found VBA’s controls for managing retroactive and one-time payments to incompetent
beneﬁciaries have signiﬁcant weaknesses. VBA did not ensure that payments valued at $10,000 or
greater were effectively coordinated among VBA ofﬁces or that Fiduciary Activities completed required
account management and estate protection actions. This occurred because of VBA’s reliance on
manual notiﬁcations, a lack of program policies and procedures, insufﬁcient management oversight, and
inadequate staff training. OIG estimates that over the next 5 years $128.5 million in payments will be at risk
because VBA failed to perform at least one required account management or estate protection action. OIG
made ﬁve recommendations to improve operations.

Veterans Benefits Administration Benefits Inspections
The Beneﬁts Inspection Program is part of OIG’s efforts to ensure our Nation’s Veterans receive timely
and accurate beneﬁts and services. These independent inspections provide recurring oversight of
VAROs, focusing on disability compensation claims processing and performance of Veteran Service
Center operations. The objectives are to evaluate how well VAROs are accomplishing their mission of
providing Veterans with convenient access to high quality beneﬁts services; determine if management
controls ensure compliance with VA regulations and policies; assist management in achieving program
goals; minimize the risk of fraud, waste, and other abuses; and identify and report systemic trends in
VARO operations. Beneﬁts Inspections may also examine issues or allegations referred by VA employees,
members of Congress, or other stakeholders.

The Beneﬁts Inspection Divisions issued 6 reports during the period October 1, 2010, through
March 31, 2011. Key summary results from claims ﬁles we reviewed include:

      • 	 Claims processing: 30 percent of beneﬁt claims requiring a rating decision were processed in error.
          These errors involved claims related to PTSD, TBI, herbicide exposure-related disabilities, and
          temporary 100 percent evaluations.

      • 	 Veterans Appeals and Record Locator System (VACOLS) compliance: 43 percent of Notice of
          Disagreements were not timely controlled for workload management in VACOLS.

      • 	 Systematic Analyses of Operations (SAOs): VARO staff did not timely and accurately complete
          27 percent of SAOs. The inadequate SAOs represent missed opportunities for VAROs to identify
          existing or potential problems and propose corrective actions.

      • 	 Mail Handling Procedures: 30 percent of mail was not properly controlled or processed.
          Consequently, beneﬁciaries may not have received accurate and timely beneﬁt payments.

      • 	 Incompetency Determinations: VARO staff unnecessarily delayed making ﬁnal decisions in
          37 percent of incompetency determinations reviewed at 4 VAROs. Delays increase the risk of an
          incompetent beneﬁciary receiving beneﬁts payments without a ﬁduciary to manage those beneﬁts
          and ensure the beneﬁciary’s welfare.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 19
Issue 65 | October 1, 2010 — March 31, 2011
                                                Office of Audits and Evaluations

Other Review
VA Receives Unqualiﬁed Opinion on Consolidated Financial Statements
OIG contracted with the independent public accounting ﬁrm, Clifton Gunderson LLP, to audit VA’s
consolidated ﬁnancial statements as of September 30, 2010, and for the year then ended. This audit is
an annual requirement of the Chief Financial Ofﬁcers Act of 1990. Clifton Gunderson LLP provided an
unqualiﬁed opinion on VA’s FY 2010 consolidated ﬁnancial statements. They also identiﬁed one material
weakness, information technology (IT) security controls, which is a repeat condition. The Department has
taken corrective actions sufﬁcient to eliminate one material weakness previously cited last year and reduce
two others to signiﬁcant deﬁciencies in this year’s internal control report. Clifton Gunderson LLP reported
that VA is not in substantial compliance with the Federal Financial Management Improvement Act of
1996, P.L. 104-208, (FFMIA) because VA did not substantially comply with Federal ﬁnancial management
systems requirements. They also noted instances of non-compliance with the Debt Collection
Improvement Act of 1996.




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
20 |
                                                                            Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations

Veterans Health Administration Investigations
The OIG Ofﬁce of Investigations conducts criminal investigations into allegations of patient abuse, drug
diversion, theft of VA pharmaceuticals or medical equipment, false claims for health care beneﬁts, and
other frauds relating to the delivery of health care to millions of Veterans. In the area of health care
delivery, OIG opened 209 cases, made 105 arrests, and obtained over $175,262,486 million in ﬁnes,
restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.

During this reporting period, OIG opened 66 investigations regarding diversion of controlled substances.
Subjects of these investigations included VA employees, Veterans, and private citizens. Forty defendants
were charged with various crimes relating to drug diversion. OIG also initiated 20 investigations regarding
fraudulent receipt of health beneﬁts. Eight defendants were charged with various crimes relating to
the fraudulent receipt of health beneﬁts and court-ordered payment of ﬁnes, restitution, and penalties
amounted to $306,888.

Former West Los Angeles, California, VAMC Pharmacist Charged with Stealing Pharmaceuticals
A former West Los Angeles, CA, VAMC pharmacist was charged with the transportation of stolen goods
after a OIG, Food and Drug Administration (FDA) OIG, and Immigration and Customs Enforcement (ICE)
investigation revealed that for over 5 years, the defendant stole non-controlled pharmaceuticals valued at
$190,000 from the VAMC pharmacy warehouse. The stolen goods were then sold through the internet to
an individual in Florida, who has also been charged in a related case.

Former Jackson, Mississippi, VAMC Nurse Pleads Guilty to Drug Diversion
A former registered nurse at the Jackson, MS, VAMC pled guilty and entered into a pretrial diversion
agreement for a period of 3 years after being indicted for prescription fraud. An OIG investigation disclosed
that the nurse falsiﬁed 47 prescriptions using the names of numerous Veterans. For over 7 months, the
defendant diverted over 6,000 tablets of pain medication from the VAMC and admitted to stealing the drugs
for her personal use.

Portland, Oregon, VAMC Nurse Sentenced for Drug Diversion
A Portland, OR, VAMC nurse was sentenced to 15 days’ incarceration, 36 months’ probation, and ordered
to pay $710 in restitution to VA. An OIG and VA Police investigation revealed that the nurse used his
position to gain access to the identities of patients no longer under his care to access a VA narcotic
dispensing machine, falsely recording that the narcotics were for these patients. The defendant then self-
administered the narcotics, to include fentanyl and midazolam, while on duty and providing health care
services to Veterans.

Veteran Admits to Doctor Shopping to Obtain Narcotics
A Veteran was granted an 18-month Deferred Entry of Judgment for obtaining a controlled substance by
fraud and was ordered to complete a substance abuse program. The defendant admitted that he had
received 5,454 doses of hydrocodone, oxycodone, and methadone from both VA and his private physician
in a 12-month period. The Veteran admitted to making false statements to both doctors about not receiving
narcotics from other sources.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 21
Issue 65 | October 1, 2010 — March 31, 2011
                                                                  Office of Investigations

Defendants Arrested for Drug Distribution
Two defendants were arrested for distribution of heroin and conspiracy to violate drug laws. An OIG, Drug
Enforcement Administration (DEA), VA Police, and local police investigation determined that the defendants
were selling illicit drugs to at least two Veterans receiving treatment for substance abuse at the Bedford,
MA, VAMC. The director of the VAMC informed OIG that the Veterans complained about the illicit drugs
being dealt in and around the VAMC. A search of the defendant’s residence and two vehicles conducted
after their arrest led to the discovery of illegal drug packaging material and customer lists.

Portland, Oregon, VAMC Technician Indicted for Drug Theft
A Portland, OR, VAMC medical technician was indicted for identity theft and computer crime after an
OIG and VA Police investigation revealed that she diverted controlled substances from a VA Acudose
medication dispensing machine. The defendant admitted to diverting the narcotics for over a year by using
ﬁctitious identities or identities of patients that were no longer under her care. The employee also admitted
to using the narcotics while on-duty.

Former Lexington, Kentucky, VAMC Nurse Sentenced for Prescription Fraud
A former Lexington, KY, VAMC nurse was sentenced to 36 months’ supervised release and ordered to
complete a 5-year substance abuse program with the State Board of Nursing after an OIG investigation
revealed that the defendant phoned in narcotic prescriptions to local pharmacies using the name of her
estranged husband as the patient’s name and then picked up the prescriptions herself. The defendant
used the name of a nurse co-worker when calling the pharmacies and also used a VAMC physician’s DEA
number to complete the fraudulent transactions.

Former Providence, Rhode Island, Nurse Indicted for Drug Diversion
A former Providence, RI, VAMC intensive care nurse was indicted for diversion of a controlled substance
after an OIG and VA Police investigation revealed that he obtained hydromorphone and falsiﬁed VA
controlled substance records to conceal his theft of the drug. This case was initiated following an internal
VA analysis that showed a high frequency of Pyxis system overrides performed by the defendant compared
to other nurses on the ward.

Former Mountain Home, Tennessee, VAMC Nurse Sentenced for Drug Diversion
A former Mountain Home, TN, VAMC registered nurse was sentenced to 3 years’ supervised probation and
200 hours’ community service after pleading guilty to obtaining a controlled substance by fraud. An OIG
and VA Police investigation revealed that on approximately 24 occasions between March and June 2009,
the defendant stole morphine, hydromorphone, hydrocodone, and oxycodone intended for Mountain Home
VAMC patients.

Former Lexington, Kentucky, VAMC Nurse Pleads Guilty to Involuntary Manslaughter
A former Lexington, KY, VAMC registered nurse, previously indicted for murder, pled guilty to involuntary
manslaughter. An OIG investigation revealed that, without proper authority, the defendant infused over
75mg of morphine into a 90 year-old Veteran in a period of 6 hours. These doses were found to have
contributed to the patient’s death.




                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
22 |
                                                                              Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations
Defendant Indicted for Stolen Valor Fraud
A former National Guard member, ineligible for VA health care beneﬁts, was indicted for theft of
Government property and making a false statement after an OIG investigation revealed that he fraudulently
received VA health care beneﬁts between 1998 and 2010. The investigation determined that the defendant
falsely claimed to have served in Vietnam by using altered military discharge documents. The defendant
also falsely claimed to have earned the Vietnam Service Ribbon and the Purple Heart. The loss to VA is
$143,606.

Former Palo Alto, California, VAMC Patient Sentenced for Assault of Physician
A former VA patient at the Palo Alto, CA, VAMC was sentenced to 33 months’ incarceration, 3 years’
probation, and 500 hours’ MH treatment after pleading guilty to forcibly assaulting a VA physician while
in the performance of her ofﬁcial duties. An OIG and VA Police investigation revealed that the defendant
attacked the VA physician from behind and struck her in the head with a closed ﬁst. The physician was
knocked unconscious and sustained severe injuries that required hospitalization.

Veteran Sentenced for Assaulting VA Police Ofﬁcers at Cleveland, Ohio, VAMC
A Veteran was sentenced to 38 months’ incarceration and 36 months’ probation after pleading guilty to the
assault of a VA Police Ofﬁcer. An OIG and VA Police investigation revealed that the defendant assaulted
and injured three VA Police ofﬁcers who were attempting to calm him while he was a patient at the
Cleveland, OH, VAMC.

VA Patient Arrested for Assault of VA Police Ofﬁcer
A VA patient at the Palo Alto, CA, VAMC was arrested and charged with assaulting an on-duty VA Police
Ofﬁcer. The defendant entered the VAMC ER complaining about knee pain and demanded speciﬁc types
and quantities of narcotics. The defendant became belligerent after the attending physician denied his
request and VA Police Ofﬁcers were dispatched to the ER. The patient lunged at the ﬁrst responding
ofﬁcer, spit in his face, and called him a derogatory racial term. The ofﬁcer was immediately taken for bio-
hazard evaluation and treatment because the defendant’s saliva went into the ofﬁcer’s eyes and mouth.

Veteran Sentenced for Assault on VA Physician
A Veteran was sentenced to 2 years’ probation and ordered to pay $1,816 in restitution after pleading guilty
to assaulting a VA physician at the Tuskegee, AL, VAMC. An OIG investigation revealed that after the
defendant’s request for prescription narcotics was denied, he trapped the VA physician in an examination
room and threatened to assault and kill him.

Veteran Found Guilty of Assaulting Spokane, Washington, VAMC Employees
A Veteran was found guilty at trial of assaulting medical staff at the Spokane, WA, VAMC that resulted
in bodily injury. The Veteran invoked a temporary insanity defense based upon PTSD; however,
inconsistencies in his statements were used to impeach his credibility.

Defendant Sentenced for Theft of VA Computers at Decatur, Georgia, Clinic
A defendant was sentenced to 8 years’ incarceration after pleading guilty to burglary and theft at a Decatur,
GA, VA OPC. An OIG, VA Police, and local police investigation revealed that the defendant burglarized
the clinic on two occasions and stole two VA computers and accessories. No personal or conﬁdential data
was stored on either computer. Subsequent to the defendant’s arrest, additional warrants were issued by
other police agencies for other burglaries committed throughout the metropolitan Atlanta, GA, area.

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 23
Issue 65 | October 1, 2010 — March 31, 2011
                                                                 Office of Investigations

Veteran Sentenced for Travel Fraud from Loma Linda, California, VAMC
A Veteran was sentenced to 44 months’ incarceration after pleading guilty to forgery. An OIG investigation
determined that the defendant submitted multiple copies of a travel voucher to a Loma Linda, CA, VAMC
agent cashier in order to receive additional cash reimbursements. The investigation revealed that the
defendant traced over the VAMC budget ofﬁcer’s signature in order to make it appear the signature was
an original and then altered a VA appointment form to reﬂect different dates of treatment.

Veterans Indicted for Travel Fraud from Albuquerque, New Mexico, VAMC
Four Veterans were indicted for fraud after an OIG investigation determined that the defendants submitted
fraudulent vouchers for cash reimbursement for travel expenses. The Veterans were fraudulently claiming
to travel between 150 and 475 miles roundtrip from their homes to the Albuquerque, NM, VAMC. The loss
to VA is approximately $88,000.

Veteran Sentenced for Theft of Travel Funds from the Albuquerque, New Mexico, VAMC
A Veteran was convicted of theft and sentenced to 223 days’ incarceration, 24 months’ probation, and
ordered to pay $16,027 in restitution. An OIG investigation determined that the defendant submitted
96 fraudulent vouchers for reimbursement of travel expenses. The defendant was claiming to travel over
400 miles roundtrip from his home to the Albuquerque, NM, VAMC.

Former Veterans Service Ofﬁcer Sentenced for Travel Fraud
A former Arizona Department of Veterans Services employee was sentenced to 36 months’ probation and
ordered to pay $18,531 in restitution after pleading guilty to theft. An OIG investigation determined that
the defendant, who lived in the local Phoenix, AZ, area, fraudulently claimed to have traveled 500 miles
roundtrip to the Phoenix, AZ, VAMC for his medical appointments.

Veteran Indicted for Filing Fraudulent Travel Claims
A Veteran was indicted for theft of Government funds after an OIG investigation revealed that from April
2009 to December 2010, he ﬁled fraudulent travel claims at the Gainesville, FL, VAMC. The defendant
claimed that he was traveling 240 miles roundtrip while his actual residence was approximately 30 miles
from the VAMC. The loss to VA is $21,738.

Non-Veteran Sentenced for Theft of VA Beneﬁts
A Veteran impersonator was sentenced to 6 months’ incarceration, 36 months’ supervised release,
and ordered to pay $33,000 in restitution after pleading guilty to theft of Government property. An
OIG investigation revealed that the defendant, who never served in the military, created fraudulent
documentation in order to receive medical treatment and medication from VA.

Veteran Arrested for Assault of Nurse at White River Junction, Vermont, VAMC
OIG agents arrested a Veteran for assaulting a VA nurse at the White River Junction, VT, VAMC. An OIG
and VA Police investigation revealed that while in the ER, the defendant locked the door, took a scalpel
from a hospital cart, and physically gained control of the nurse by holding the scalpel to her throat. VA
Police were able to subdue the Veteran and the nurse sustained no injuries.

Veteran Arrested for Theft of VA Health Care Beneﬁts
A Veteran was arrested for the theft of Government property and for making a false statement after an
OIG investigation revealed he fraudulently submitted military discharge documents to the Bay Pines, FL,
                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
24 |
                                                                            Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations
VAMC. The defendant falsely claimed to have served in Vietnam and to have earned the Vietnam Service
Medal. The loss to VA is $143,606 in health care beneﬁts.

Family Member Charged with Theft of Veteran’s Identity
A felony complaint was ﬁled charging the cousin of a Veteran with identity theft and grand theft. An OIG
investigation determined that the defendant stole the identity of his cousin and over several years obtained
medical care from VA to include hip replacement surgery. The loss to VA is $98,274.

Veteran Charged with Identity Theft
A Veteran was charged with identity theft after an OIG and local police investigation revealed that he
submitted beneﬁt applications to a Vet Center and VAMC with a false DD-214 certiﬁcate. The defendant
falsely claimed that he was an ofﬁcer in the U.S. Marine Corps with combat service in Vietnam, Laos,
and Cambodia, and falsely claimed he was awarded the Silver Star, two Bronze Stars, and two Purple
Hearts. The defendant submitted the same false documentation to a VARO for PTSD, adding ﬁctitious
“buddy” letters attesting to this military service as veriﬁcation of his combat experiences in Vietnam. The
investigation revealed that the defendant was an enlisted Navy Veteran and had never served in the U.S.
Marine Corps, never deployed overseas, never served in Vietnam, and was not awarded any of the claimed
medals and was not entitled to Vet Center or VA medical services. The defendant paid $8,322 in restitution
to the Vet Center and VAMC.

Veteran and Two Accomplices Indicted for Thefts from Palo Alto, California, VAMC
A Veteran and one accomplice were arrested after being indicted for access device fraud, conspiracy
to commit access device fraud, and aggravated identity theft. A third defendant, indicted on the same
charges, is still being sought. An OIG and VA Police investigation determined that the defendants were
responsible for the theft of credit cards stolen from purses that were left in the ofﬁces of Palo Alto, CA,
VAMC employees. The defendants used the credit cards to purchase approximately $10,000 dollars in gift
cards, merchandise, and gas. The Veteran admitted knowledge of the scheme, but denied any involvement
in the thefts. However, the other two defendants provided information that the Veteran developed this
scheme and had been burglarizing VAMCs, private hospitals, and business ofﬁces for the past 10 years.

Veterans Benefits Administration Investigations
VA’s Compensation & Pension (C&P) Service administers a number of ﬁnancial beneﬁts programs for
eligible Veterans and certain family members, including VA guaranteed home loans, education, insurance,
and monetary beneﬁts. C&P investigations routinely concentrate on payments made to ineligible
individuals. For example, a beneﬁciary may deliberately feign a medical disability to defraud the VA
compensation program. OIG conducts an ongoing and proactive income veriﬁcation match to identify
possible pension fraud committed by individuals who fail to disclose income to the VA pension program,
which calculates payments according to the beneﬁciary’s income, in order to stay below the eligibility
threshold. Additionally, OIG operates an ongoing death match project to identify deceased beneﬁciaries
whose beneﬁts continue because VA was not notiﬁed of the death. Generally, family members of the
deceased are responsible for this type of fraud. With respect to VA guaranteed home loans, OIG conducts
investigations of loan origination fraud, equity skimming, and criminal conduct related to management
of foreclosed loans or properties. VA appoints ﬁduciaries for Veterans in receipt of VA beneﬁts who are
deemed incompetent and for minor children who are receiving VA beneﬁts. OIG investigates allegations
of fraud committed by these ﬁduciaries.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 25
Issue 65 | October 1, 2010 — March 31, 2011
                                                                 Office of Investigations
In the area of monetary beneﬁts, OIG opened 222 investigations, made 121 arrests, and had a monetary
impact of over $15.3 million in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies, cost avoidance, and recoveries during this reporting period. OIG opened 180 investigations
involving deceased payee cases, ﬁduciary fraud, identity theft, and Veterans/widows fraudulently receiving
VA C&P funds, which resulted in criminal charges ﬁled against 129 defendants. Court ordered payment
of ﬁnes, restitution, and penalties amounted to $920,702, while OIG achieved an additional $6.8 million in
savings, efﬁciencies, cost avoidance and recoveries. The death match project recovered $3.63 million,
with another $42,000 in anticipated recoveries. Twenty-eight “Stolen Valor” cases were opened resulting
in charges ﬁled against 20 defendants and $1,789,480 in court ordered payment of ﬁnes, restitution, and
penalties.

Veteran Who Feigned Blindness Sentenced for Defrauding VA of Over $800,000
A Veteran was sentenced to 63 months’ incarceration and ordered to pay $804,522 in restitution after
being previously found guilty at trial of health care fraud and false statements relating to health care
matters. Additionally, the defendant previously pled guilty and was sentenced to 60 months’ incarceration
for having been a felon in possession of a ﬁrearm. Both sentences will run concurrently. An OIG and the
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATFE) investigation revealed that for over 20 years
the defendant, a convicted felon, falsely represented to VA that he had extreme loss of vision in both eyes.
The Veteran received VA compensation for blindness that included a special monthly compensation.
The investigation revealed that the Veteran drove a vehicle, read, hunted with ﬁrearms, and performed
numerous other activities that would not be possible with his purported vision loss.

Veteran Who Altered Military Records Charged with Theft of VA Funds
A Veteran was charged with theft of Government funds after an OIG investigation revealed that he
provided false information to VA in support of his claim for VA disability compensation beneﬁts. Between
1998 and 2009, the defendant submitted VA forms along with altered DD-214s, Department of Defense,
and Department of the Army documents attesting to his claims that he was in Special Forces, the airborne
infantry, and was wounded in Vietnam. The altered DD-214s included fraudulent additions of Purple Heart
medals, “Silver Wings,” and military specialties of airborne infantry and Special Forces. A search warrant
conducted at the Veteran’s residence yielded a typewriter ribbon containing keystrokes used on one of the
many fraudulent DD-214s, as well as blank DD-214s manufactured by the Veteran. The investigation also
revealed that VA relied on the defendant’s statements to award service connection for PTSD. The loss to
VA is over $324,000.

Veteran Who Altered Military Records Pleads Guilty to Fraud
A Veteran pled guilty to possession of an altered/forged military discharge document, felon in possession
of a ﬁrearm, misuse of a Federal certiﬁcate, wearing false military medals, and wire fraud. An OIG, ATFE,
Department of State Diplomatic Security Service, and U.S. Coast Guard investigation revealed that the
Veteran, while serving in the Navy, gained access to the Navy’s personnel system and altered his military
service record. The Veteran’s DD-214 contained fraudulent information reﬂecting that he was a Navy
SEAL with combat service in Vietnam and that he was awarded numerous medals and commendations.
The Veteran submitted the fraudulent DD-214 to VA in support of a fraudulent compensation claim for
PTSD. The Veteran’s VA claim also contained a PTSD questionnaire fraudulently reﬂecting that he served
in Vietnam, was a member of a SEAL team, and that he had been wounded in combat. The loss to VA is
$173,000.


                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
26 |
                                                                             Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations
Veteran Indicted for Fraud
A Veteran was indicted for wire fraud and health care fraud after fraudulently claiming PTSD symptoms
and other extreme physical disabilities that qualiﬁed him for a higher rate of compensation. An OIG
investigation revealed that the defendant falsely reported his physical disabilities to the VAMC staff and
the VARO in his claim for beneﬁts. Witness interviews and surveillance videos of the Veteran using
lawn mowers, tilling a garden, and lifting 95 pound landscape boulders revealed that the defendant
was able-bodied and capable of strenuous work. The defendant also engaged an undercover agent
in a conversation and coached him on how to fraudulently represent symptoms of PTSD to VA, even
after being told by the agent that he did not have any PTSD symptoms. VA rescinded the defendant’s
compensation for PTSD and has downgraded his percentage for other disabilities, reducing his overall
beneﬁts. The loss to VA is over $200,000.

Veteran Admits to Defrauding VA
A Veteran who entered into a pre-trial diversion agreement was ordered to pay $66,661 in restitution and
comply with all other conditions of the agreement for 12 months. During an OIG investigation, the Veteran
admitted that he deliberately failed to report his employment income to VA. As a result, he fraudulently
received VA pension beneﬁts to which he was not entitled.

Veteran Pleads Guilty to Bank Fraud
A Veteran pled guilty to bank fraud and aggravated identity theft after an OIG, Secret Service, and
Federal Bureau of Investigation (FBI) investigation revealed the he used a false Social Security number
and other false identiﬁcation documents in order to secure a $204,000 VA home loan. The loss to VA is
approximately $36,000.

Veteran Pleads Guilty to Stolen Valor Fraud
A Veteran pled guilty to forgery after an OIG investigation revealed that he had altered his DD-214, falsely
claimed to have served in Vietnam, and that he earned a Purple Heart and the Vietnam Service Medal.
The defendant submitted the fraudulent DD-214 to the VARO to establish support for a fraudulent claim
for VA disability compensation beneﬁts, to include PTSD. The DD-214 was accompanied by multiple
statements claiming heroic combat action in Vietnam and wounds incurred from that action. The loss to
VA is approximately $22,000.

Individual Sentenced for Stolen Valor
An individual was sentenced to 60 days’ house arrest, 5 years’ probation and ordered to pay restitution
of $20,548 after pleading guilty to theft of Government funds. An OIG investigation revealed that the
defendant ﬁled a fraudulent claim for VA compensation beneﬁts for PTSD by using an altered DD 214.
The defendant admitted altering his DD-214 to falsely indicate military service as a sniper in Vietnam and
award of a Combat Action Ribbon and Purple Heart Medal. The defendant was actually discharged from
the Marine Corps during basic training after going absent without ofﬁcial leave.

Veteran Found Guilty of Stolen Valor Fraud
A Veteran was found guilty at trial of unlawful possession of an altered discharge certiﬁcate, false
representation of earning military decorations, false statements, and mail fraud. The defendant, a former
elected county ofﬁcial, claimed to be a recipient of the Vietnam Campaign and Service medals while
running for re-election in 2007. During the investigation into false representations of earning military


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 27
Issue 65 | October 1, 2010 — March 31, 2011
                                                                  Office of Investigations
decorations, the Veteran resigned his position as county Commissioner of Revenue. The investigation
also determined that the defendant made false statements to VA, related to an October 1973 murder
at Fort Bragg, while applying for VA beneﬁts associated with PTSD. The loss to VA is approximately
$53,000.

Veteran and Wife Indicted for Theft of Government Funds
A Veteran and his wife were indicted for theft after an OIG and SSA OIG investigation revealed that they
used false identities to obtain VA and Social Security beneﬁts. The Veteran obtained VA pension beneﬁts
under his true identity, while working and eventually retiring under a false identity. Both defendants also
obtained Social Security beneﬁts to which they were not entitled. The defendants’ scheme to defraud
VA and SSA lasted over 40 years, and the fraud amount is approximately $328,000. The loss to VA is
$61,460.

Veteran and Spouse Sentenced for Theft of Government Funds
A Veteran and his spouse were each sentenced to 60 months’ probation and ordered to pay restitution of
$71,816 to VA and $48,174 to the SSA after pleading guilty to theft of Government funds. An OIG, SSA
OIG, and U.S. Secret Service investigation revealed that the Veteran received VA unemployability and
Social Security disability beneﬁts, but failed to disclose his employment as a long haul truck driver. The
spouse, who worked for the same company, received his wages under her Social Security number to
conceal his employment from VA and SSA.

Veteran and Wife Indicted for Fraud
A Veteran and his wife were indicted for theft of funds, concealment of a material fact related to Social
Security funds, conspiring to defraud the Government, obtaining Title IV Department of Education funds
by fraud and false statements, ﬁling false tax returns, and causing another to ﬁle a false tax return. An
OIG, SSA OIG, IRS Criminal Investigations Division (CID), and Department of Education OIG investigation
revealed that the defendant failed to disclose his employment income to VA and SSA while collecting VA
unemployability beneﬁts. Both defendants also conspired to defraud the United States by under-reporting
their income and using fraudulent tax returns to apply for Federal student aid for two daughters. The loss
to VA is $224,473.

Widow Pleads Guilty to Theft of Government Funds
The widow of a Veteran pled guilty to theft of Government funds and false statements. An OIG
investigation determined that the defendant fraudulently received VA Dependency and Indemnity
Compensation (DIC) beneﬁts from March 1997 to December 2009 by failing to report her remarriage.
The loss to VA is $148,943.

Widow Sentenced for Theft of VA Pension Beneﬁts
The widow of a deceased Veteran was sentenced to 15 months’ incarceration, 36 months’ probation, and
ordered to pay $70,000 in restitution after pleading guilty to the theft of Government property. An OIG
investigation revealed that the defendant remarried and continued to receive VA surviving spouse pension
beneﬁts that she was no longer entitled to receive.

Widow Sentenced for Defrauding VA
A widow was sentenced to 8 months’ electronic monitoring, 4 years’ probation and ordered to make
restitution of $221,474 to VA. An OIG investigation revealed that the defendant failed to notify VA that she
had remarried and subsequently received DIC beneﬁts to which she was not entitled.
                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
28 |
                                                                             Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations
Widow Indicted for Theft of Government Funds
The widow of a deceased Veteran was indicted for theft of Government funds after an OIG investigation
determined that she failed to notify VA of her remarriage in 2003 and fraudulently received DIC beneﬁts to
which she was no longer entitled. The loss to VA is $87,463.

Defendant Who Stole Deceased Veteran’s Identity Indicted for Theft of VA Funds
A defendant, believed to be the son of a deceased beneﬁciary, was indicted for bank fraud and additional
charges after an OIG and Postal Inspection Service investigation revealed that the defendant stole the
identities of numerous individuals, to include the deceased Veteran’s identity. The defendant used the
identity of the deceased Veteran to steal VA beneﬁts that were issued after the beneﬁciary’s death in
September 1996. The loss to VA is $127,661.

Non-Veteran Sentenced for Identity Theft
A non-Veteran was sentenced to 15 months’ incarceration, 3 years’ probation, and ordered to pay
$125,285 in restitution after pleading guilty to misuse of a Social Security number and false statements
related to health care matters. An OIG and SSA OIG investigation revealed that the defendant stole the
identity of a Veteran and redirected the Veteran’s VA compensation beneﬁts and military retirement to his
own bank account. The loss is approximately $150,000.

Fiduciary Pleads Guilty to the Theft of VA Funds
A certiﬁed legal assistant acting as the VA-appointed ﬁduciary for two Veterans pled guilty to a criminal
information charging her with theft of Government funds. An OIG investigation revealed that for 2 years
the defendant stole approximately $57,600 from the Veterans’ accounts.

Fiduciary Sentenced for Theft
A Veteran’s daughter was sentenced to 8 years’ probation and ordered to pay $11,391 in restitution after
pleading guilty to the misapplication of ﬁduciary property of the elderly. An OIG investigation revealed that
the defendant misappropriated approximately $72,500 in VA and Social Security beneﬁts intended for her
father, an elderly Veteran conﬁned to a nursing home. The defendant had been serving as her father’s
legal custodian under a Durable Power of Attorney.

Former Fiduciary Sentenced for Embezzlement
A former VA appointed ﬁduciary was sentenced to 6 months’ home conﬁnement, 36 months’ probation,
100 hours’ community service, and ordered to pay restitution of $57,504. An OIG investigation
revealed that for several years the ﬁduciary embezzled money from two Veterans who were under her
guardianship. The restitution will be used to beneﬁt the victimized Veterans.

Nephew of Deceased Beneﬁciary Sentenced for Theft
The nephew of a deceased VA beneﬁciary was sentenced to 3 years’ probation and ordered to pay
restitution of $56,067 after pleading guilty to theft of Government funds. The defendant, who held a Power
of Attorney for his aunt, failed to notify VA of her death and subsequently stole VA funds that were direct
deposited after her death in October 2004.

Daughter of Deceased Beneﬁciary Charged with Theft
The daughter of a deceased beneﬁciary was charged with theft of Government property after an OIG


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 29
Issue 65 | October 1, 2010 — March 31, 2011
                                                                  Office of Investigations
investigation determined she continued to access a joint bank account after her mother’s death. For more
than 9 years, the defendant used the VA beneﬁts to pay for personal expenses, to include remodeling her
house. The loss to VA is $129,839.

Daughter of Deceased Beneﬁciary Changes Plea to Guilty
The daughter of a deceased VA beneﬁciary changed her plea to guilty during her trial for theft of
Government funds. The defendant stole VA beneﬁts that were issued after her mother’s death in March
1994. The loss to VA is $136,885.

Son of Deceased Veteran Found Guilty of Fraud and Identity Theft
The son of a deceased Veteran was found guilty at trial of bank fraud and aggravated identity theft. An
OIG and U.S. Postal Inspection Service investigation determined that the defendant failed to report his
father’s death to VA, assumed his identity, and utilized the VA beneﬁts for his personal use. The loss to VA
is $126,276.

Wife of Deceased Veteran Pleads Guilty to Theft of Government Funds
The wife of a deceased Veteran pled guilty after being indicted for theft of Government funds. A
competency hearing is pending in State court concerning charges that the defendant also murdered
her husband. An OIG, U.S. Secret Service, SSA OIG, and local police investigation determined that
the defendant stole her husband’s Government beneﬁts after killing him and burying his body in their
backyard. The defendant accessed a joint bank account after her husband’s death in April 2007 and used
the VA and SSA beneﬁts to pay for personal expenses. The loss to VA is $103,839 and the loss to SSA is
$25,353.

Daughter of Deceased Beneﬁciary Sentenced for Theft of VA Beneﬁts
The daughter of a deceased VA beneﬁciary was sentenced to 5 years’ probation and ordered to pay
restitution of $93,648 to VA after pleading guilty to theft of Government funds and false statements. An
OIG and U.S. Postal Inspection Service investigation determined that the defendant failed to report her
mother’s August 2004 death to VA, forged her deceased mother’s signature on VA documentation, and
attempted to transfer and hide the VA beneﬁt payments from investigators. After sentencing, funds were
seized from the defendant’s bank account by court order for payment of the restitution.

Daughter of Deceased VA Beneﬁciary Pleads Guilty to Fraud
The daughter of a deceased beneﬁciary pled guilty to wire fraud after an OIG investigation revealed that
she stole VA beneﬁts that were direct deposited into a joint bank account after her mother’s death in
October 2004. The approximate loss to VA is $59,000.

Other Investigations
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false claims
submitted by contractors, and other fraud relating to VA procurement activities. In the area of procurement
practices, OIG opened 20 cases, made 2 arrests, and had a monetary impact of $283,732,284 in ﬁnes,
restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.

Pharmaceutical Company Pleads Guilty to Distribution of Adulterated Drugs
The subsidiary of a major pharmaceutical company agreed to plead guilty to charges relating to the
manufacturing and distribution of certain adulterated drugs made at their now-closed manufacturing facility.
                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
30 |
                                                                             Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations

The resolution includes a criminal ﬁne and forfeiture totaling $150 million and a civil settlement under the
False Claims Act and related state claims of $600 million. The criminal information was ﬁled as a result
of a multiagency investigation that alleged that the manufacturing plant’s operations failed to ensure that
various drugs were free of contamination from microorganisms. This is the ﬁrst time the civil False Claims
Act was used to recover damages for current Good Manufacturing Practices (cGMPs) violations. The
major pharmaceutical company expressly certiﬁed in VA contracts that they would comply with cGMPs,
as laid out in the Food, Drug and Cosmetic Act. From 2001 to 2005, VA purchased approximately $13.5
million worth of the four suspect drugs, which is the amount considered to be single damages and will
be returned directly to the VA Pharmaceutical Supply Fund. VA’s entire portion of the civil settlement is
$40,705,753.

Pharmaceutical Company Ordered at Sentencing to Pay $164 Million in Fines, Forfeits for Multiple
Violations
Forest Pharmaceuticals was ordered at sentencing to pay a $150 million criminal ﬁne and forfeit $14 million
in substituted assets after having previously pled guilty to obstructing justice, distributing an unapproved
new drug in interstate commerce, and distributing a misbranded drug in interstate commerce. This
sentencing was the ﬁnal judicial action against the company and closes out the global settlement in which
the company paid $313 million to resolve criminal and civil allegations that were investigated by OIG, the
FBI, Health and Human Services (HHS) OIG, and the FDA Ofﬁce of Criminal Investigations.

Pharmaceutical Subsidiary Ordered at Sentencing to Pay Over $100 Million in Fines, Forfeits For
Drug Misbranding
Elan Pharmaceuticals, Incorporated (EPI), the U.S. subsidiary to Ireland-based Elan Corporation, Public
Limited Company (Elan), pled guilty to the misbranding of Zonegran, an anti-epileptic drug, and was
ordered at sentencing to pay a $97,050,266 criminal ﬁne and forfeit $3.6 million in substituted assets.
Both Elan and EPI had previously agreed to a $203.5 million global settlement to resolve criminal and
civil liability arising from the illegal promotion of the drug. The Government alleged that the subsidiary
promoted the sale of its drug for a variety of improper off-label uses, to include psychiatric disorders, pain
management, eating disorders, weight loss, and monotherapy.

University Pays $879,000 to Resolve Allegations of Contract Billing Irregularities
A VA-afﬁliated university entered into a Civil Settlement Agreement in order to resolve potential False
Claims Act violations after an OIG review and subsequent investigation revealed improper conduct
by agents and employees of the university involving contracts between VA and the university. The
Government alleged that the university violated a law prohibiting Federal employees from receiving
compensation from a private source for performing their public duties, and that the university’s submission
of certain invoices to VA constituted a violation of the False Claims Act. The irregularities with some of
the contracts were initially discovered during a CAP review. Following the review, the university returned
$467,000 of VA funds. A subsequent OIG investigation resulted in the university returning an additional
$137,000. The university agreed to pay an additional $275,000 in the settlement agreement, for a total
return of $879,000. Additionally, the university agreed to enhance its existing policies by requiring agents
and employees working on Federal grants and contracts to better identify conﬂicts of interest and to provide
for additional tiers of review with respect to the disposition of contract funds.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                            | 31
Issue 65 | October 1, 2010 — March 31, 2011
                                                                   Office of Investigations

Defendants Sentenced for Robbing and Killing Veteran
A defendant was sentenced to 22 years’ incarceration and 5 years’ supervised release after pleading guilty
to manslaughter in the ﬁrst degree and a co-defendant pled guilty to attempted robbery. An OIG and local
police investigation of the robbery and murder of a Veteran participating in the VA’s Supportive Housing
initiative with Housing and Urban Development revealed that the Veteran was murdered in his subsidized
apartment and that his checkbook, debit card, and vehicle were stolen. Both defendants were known to
the Veteran. The defendants used the money they stole from the bank account to purchase drugs.

VA Contractor Enters into Agreement with Government
A VA contractor entered into a Civil Settlement Agreement with the Department of Justice (DOJ) and
agreed to pay $150,000 to VA after an OIG and Small Business Administration (SBA) OIG investigation
revealed that the company submitted false statements in order to obtain a Historically Underutilized
Business Zone (HUBZone) set-aside contract from the Fayetteville, NC, VAMC. In order to obtain their
HUBZone certiﬁcation, the contractor submitted a HUBZone application to SBA falsely stating that the
location of the company’s principal ofﬁce was located in a HUBZone. Based upon this fraudulently
obtained HUBZone certiﬁcation, VA awarded a $462,500 ﬁre alarm upgrade contract to the company.

Subject Arrested for Theft from VA Construction Site
A defendant was arrested for burglary, grand theft, and resisting arrest after an OIG and local police
investigation revealed that since June 2010, there had been multiple thefts of copper from a VA
construction site. During this investigation, OIG agents and local police arrested the defendant in the act
of burglarizing the site. The thefts delayed the construction project and created a loss of approximately
$5,000.

Corporation and Subsidiary Sentenced for Medical Device Fraud
Synthes Incorporated and Norian Corporation, a wholly-owned subsidiary of Synthes, were each
sentenced after pleading guilty to shipping adulterated and misbranded products in interstate commerce
and conspiracy to impair and impede the lawful functions of the FDA, and to commit crimes against the
United States. Synthes was ﬁned $200,000, ordered to pay $469,800 in restitution ($30,000 being paid to
VA), and divest itself of Norian. Norian was ﬁned $22.5 million. They were also excluded from conducting
future business with any federally funded program. The sentencing of four executives previously convicted
for their roles in the fraud is pending.

Realtor Sentenced for Making False Statements
A realtor was sentenced to 36 months’ probation, ﬁned $10,000, and ordered to pay restitution of $25,000
to VA after pleading guilty to making a false statement. An investigation conducted by OIG and the FBI
revealed that the defendant was working for a property management ﬁrm hired by VA to rehabilitate
foreclosed homes. The defendant and a local contractor conspired to submit bogus bids to ensure that
the contractor was awarded all of the realtor’s repair work on the foreclosed properties. For his part of the
scheme, the defendant received 15 percent of the payments.

Nursing Home Manager Pleads Guilty to Health Care Fraud
A regional accounts receivable manager pled guilty to health care fraud and making a false or fraudulent
return. The guilty plea stems from a multiagency investigation into various health care frauds and
embezzlement of funds by the Chief Executive Ofﬁcer and senior employees of a nursing home chain.


                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
32 |
                                                                              Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations

The defendant stole funds from the company’s patient trust account that included VA beneﬁt payments for
a Veteran residing in one of the company’s nursing homes.

Contractor Arrested for Theft, Other Charges for Construction Projects in Vancouver, Washington
The owner of a drywall installation company was arrested after being indicted for criminal antitrust, theft,
tampering with physical evidence, obstruction of Governmental administration, racketeering, forgery,
criminal conspiracy, and money laundering. An OIG, ICE, and Oregon DOJ investigation revealed that
the company falsely certiﬁed payroll records for employees and did not pay employees the prevailing
Government contract rate while working on American Recovery and Reinvestment Act (ARRA) funded
construction contracts at the Vancouver, WA, campus of the VAMC Portland, OR.

UPS Supervisor Arrested for Embezzlement of VA Drugs
A United Parcel Service (UPS) supervisor was arrested for embezzlement as the direct result of an OIG
and local law enforcement investigation. The investigation utilized electronic and other surveillance
methods to monitor a UPS facility where approximately 35 VA parcels containing drugs had previously
been stolen. During the surveillance, the defendant stole a VAMC parcel and after being arrested admitted
to stealing approximately 40 VA parcels containing drugs, which he then sold for approximately $10,000
and also traded for cocaine. A search of the defendant’s vehicle yielded two additional VA pill bottles and
four bags containing suspected cocaine.

Veteran Indicted on Multiple Charges of Fraud
A Veteran was charged in a superseding indictment with wire fraud, mail fraud, forging ofﬁcial U.S.
Department or agency seals, impersonating an ofﬁcer or employee of the U.S., and aggravated identity
theft. A multi-agency investigation revealed that the defendant was operating an internet printing business
which sold counterfeit military awards and training certiﬁcates from all branches of the service, as well
as law enforcement awards and training certiﬁcates. The indictment charges the defendant with falsely
certifying that he was an ofﬁcer of the U.S. and also with using the names and identifying information of
U.S. ofﬁcials. The fraud associated with this investigation is estimated at more than $260,000.

Administrative Investigations
OIG’s Administrative Investigations Division independently reviews allegations and conducts administrative
investigations generally concerning high-ranking senior ofﬁcials and other high proﬁle matters of interest
to the Congress and the Department. During this reporting period, OIG issued three reports and four
advisories containing nine recommendations for administrative and corrective actions. The Division also
investigated 23 allegations that it did not substantiate.

Investigation Substantiates Improper Funding of Academic Degree by Former OI&T Ofﬁcial
An administrative investigation substantiated that a former OI&T Executive Assistant improperly authorized
$75,000 worth of academic degree funding in order for a former Special Assistant to the VA Secretary
and Deputy Secretary to obtain an Executive Master of Business Administration degree. Additionally, the
investigation concluded that the Special Assistant was improperly detailed for an extended period and
failed to cooperate with an OIG investigation.

Investigation Substantiates IT Policy Violations by Senior OI&T Ofﬁcial
An administrative investigation substantiated that an OI&T senior ofﬁcial violated VA policy when he
failed to properly safeguard and report the theft of a VA-issued laptop computer in September 2007. The
VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 33
Issue 65 | October 1, 2010 — March 31, 2011
                                                                  Office of Investigations
employee also misused his VA-issued computers, cellular telephones, and e-mail account to create and
send messages and pornographic images to another person. He additionally failed to testify freely and
honestly about his past behavior and actions.

Senior OI&T Ofﬁcial Paid Washington, DC, Salary Rate, But Worked Elsewhere
A spin-off investigation of the same OI&T senior ofﬁcial cited in the laptop theft and pornography case
above substantiated that he improperly received Washington, DC, locality pay despite the fact that he lived
and worked outside of the Washington, DC, area. The investigation determined that the senior ofﬁcial
received over $41,330 in improper pay for which he was not entitled.

Employee-Related Investigations
During this reporting period, OIG opened 27 investigations regarding criminal activities by VA employees
(not including drug diversion). The types of crimes investigated included Workers’ Compensation Fraud,
theft from Veterans, and theft of VA property or funds. Sixteen defendants were charged with crimes and
court ordered payment of ﬁnes, restitution, and penalties amounted to $132,398.

Former Hines, Illinois, VAMC Employee Sentenced for Sexual Assault
After pleading guilty to aggravated criminal sexual abuse, a former VA employee was sentenced to
36 months’ incarceration, 2 years’ supervised release, ordered to register as a sex offender in the State of
Illinois for 10 years, and pay an administrative fee of $1,585. An OIG investigation revealed that between
June and August 2006, while employed at the Hines, IL, VAMC, the defendant sexually assaulted his minor
daughter in his apartment located on the Hines campus. The investigation also revealed that the defendant
sexually assaulted the same daughter in a Las Vegas, NV, hotel room sometime between June and July
2007. The defendant was arrested by the Las Vegas Police Department and was convicted for child abuse,
neglect, and open or gross lewdness in the case.

Private Physician Charged with Fraud and Money Laundering
A physician who owned a private medical clinic that treated Veterans and private patients was charged in
a criminal information with health care fraud and money laundering. An OIG and HHS OIG investigation
revealed that from May 2003 to December 2004, the doctor defrauded VA and HHS by submitting false
claims for services not rendered, falsely up-coding services, billing for false “incident to” services, and
double-billing. The loss to the Government is $297,215.

Former Boston, Massachusetts, VAMC Employee Sentenced for Drug Theft
A former Boston, MA, VAMC employee was sentenced to 24 months’ probation after pleading guilty to
the acquisition of oxycodone by subterfuge or deception. An OIG, VA Police, DEA, and local police
investigation determined that since January 2010, the defendant, who was a VA mail courier, had taken
approximately 1,300 oxycodone pills from outgoing packages being mailed to VAMC patients. The
defendant opened the prescription bottles while the shipping envelopes remained sealed, emptied a portion
of the pills, replaced the cap on the bottle, and tore a small hole in the envelope from which the pills were
removed. In most instances, when the envelopes arrived the patients were unaware they were missing
narcotics. At the time of his arrest, the defendant had stolen narcotics in his possession. The defendant
subsequently confessed to being addicted to pain medications and to selling a portion of the narcotics off
VA property.



                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
34 |
                                                                              Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations
Nashville, Tennessee, VAMC Employee Found Guilty of Fraud
A Nashville, TN, VAMC employee was found guilty at trial of activities related to time and attendance fraud
and making false statements to Federal agents. An OIG investigation revealed that the defendant had
taught classes as a professor at a local university during his scheduled tour of duty at the VAMC since
1995. The loss to VA is over $47,000.

West Los Angeles, California, VAMC Employee Charged with Sale of Marijuana and Theft
A West Los Angeles, CA, VAMC employee was charged with grand theft and possession of marijuana after
an OIG investigation determined that the employee was selling marijuana at work and defrauding the transit
beneﬁt program.

Phoenix, Arizona, VAMC Employee Pleads Guilty to Drug Possession
A Phoenix, AZ, VAMC employee, who was terminated from her employment, pled guilty to possession or
use of drug paraphernalia and was sentenced to 50 hours’ community service and 12 months’ probation.
Additionally, a VARO employee resigned from his position, and a second former VARO employee pled
guilty to criminal facilitation to commit possession of dangerous drugs for sale and was sentenced to
2 years’ probation. An OIG and DEA Drug Diversion Task Force investigation determined that the VAMC
employee purchased VA narcotics from the two former VARO employees. The investigation revealed that
for approximately 2 years the subjects illegally sold their narcotics to the VAMC employee in and around
the parking lot of VA ofﬁces.

Former Lyons, New Jersey, VAMC Employee and Associate Sentenced for Fraud
A former Lyons, NJ, VAMC employee and an associate in the employee’s private practice were sentenced
on previous convictions for health care fraud. The former employee was sentenced to 366 days’
incarceration and 36 months’ probation. Her associate was sentenced to 30 months’ incarceration and
36 months’ probation. Both defendants were also ordered to pay $76,496 in restitution. A multiagency
investigation revealed that the VA employee and the associate devised a scheme to misrepresent the
associate’s qualiﬁcations and bill Government and private insurers at inﬂated prices and for greater
services than actually provided.

Former Las Vegas, Nevada, VAMC Employee Sentenced for VA Beneﬁciary Fraud
A former Las Vegas, NV, VAMC employee, who is also a Veteran, was sentenced to 366 days’
incarceration for theft of Government funds, 10 months’ incarceration for the unlawful wearing of a service
medal, 3 years’ probation, and ordered to pay $180,000 in restitution to VA. An OIG investigation revealed
that the defendant ﬁled fraudulent paperwork with the U.S. Air Force and VA claiming to have been
awarded a Purple Heart for being wounded in Vietnam. Based upon the fraudulent claims and counterfeit
documents submitted by the Veteran, the U.S. Air Force awarded him a Purple Heart. The defendant then
used the Purple Heart and a self inﬂicted gunshot wound, received 20 years after his military service, to
obtain compensation beneﬁts from VA.

Two Former Gainesville, Florida, VAMC Employees Sentenced for Fraud
Two former Gainesville, FL, VAMC employees were sentenced to 2 years’ probation and ordered to pay
restitution of $5,398 after pleading guilty to the embezzlement of Government funds. An OIG investigation
revealed that the two defendants, a VA Travel Clerk and a VA Agent Cashier, conspired to ﬁle 62 fraudulent
travel vouchers and embezzle the funds.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 35
Issue 65 | October 1, 2010 — March 31, 2011
                                                                  Office of Investigations

Former Union Ofﬁcial Sentenced for Fraud
The former President of an American Federation of Government Employees (AFGE) Chapter located at the
Albuquerque, NM, VAMC was sentenced to 4 months’ incarceration, 36 months’ probation, and ordered
to pay $77,458 in restitution to AFGE after pleading guilty to wire fraud and deprivation of honest services.
An OIG and Department of Labor (DOL) investigation determined that the defendant embezzled AFGE
funds by making ATM withdrawals and personal charges using an AFGE bank card.

Former Montgomery, Alabama, VARO Employee Sentenced for Identity Theft
A former Montgomery, AL, VARO employee was sentenced to 20 consecutive weekends in jail and
3 years’ probation after pleading guilty to theft of Government property. An OIG, IRS CID, and local
police investigation revealed that the defendant obtained Veterans’ personal information while employed
at the VARO and provided the information to co-conspirators outside of VA, who then used the personal
information to ﬁle fraudulent tax returns.

Former East Orange, New Jersey, VAMC Employee Sentenced for Health Care Fraud
A former East Orange, NJ, VAMC employee was sentenced to 23 months’ incarceration, 24 months’
probation, and ordered to pay a $10,000 ﬁne and restitution of $253,727 to the Ofﬁce of Personnel
Management (OPM). An OIG, FBI, and OPM OIG investigation revealed that the defendant submitted
false claims to the Federal Employee Health Beneﬁts program for medical procedures that the defendant
claimed were performed during periods he was overseas.

Former OI&T Employee Found Guilty of Fraud and Identity Theft
A former OI&T employee, assigned to the Fayetteville, NC, VAMC was found guilty at trial of false and
fraudulent tax returns, wire fraud, and aggravated identity theft. An OIG and IRS CID investigation
revealed that the defendant used his position to obtain approximately 160 Veterans’ personal identiﬁers and
then utilized the identiﬁers on tax documents without the Veterans’ knowledge. The defendant used his
computer and tax consulting business to prepare and ﬁle the fraudulent tax documents.

Long Beach, California, VAMC Nurse Charged with Fraudulent Impersonation
A Long Beach, CA, VAMC nurse was charged with fraudulent impersonation of another to obtain credit.
An OIG and local police department investigation revealed that the defendant stole the personal identifying
information of 45 patients and used that information to make fraudulent purchases.

Former Leavenworth, Kansas, VAMC Employee Arrested for Theft of Government Funds
A former Leavenworth, KS, VAMC employee was arrested after being indicted for the theft of Government
funds. An OIG and DOL OIG investigation revealed that between 2003 and 2008, the defendant concealed
approximately $577,000 in earnings from DOL while managing a subcontracting business. The defendant
also stole, forged, and negotiated approximately $27,000 in workers’ compensation beneﬁt checks intended
for her deceased brother, a former U.S. Postal Service employee and service-connected Veteran. The
loss to VA is approximately $175,000.

VA Employee and Nephew Plead Guilty to Theft of Government Funds
A VA employee and his nephew pled guilty to theft of Government funds. The VA employee was
terminated after he entered his guilty plea. An OIG investigation revealed the defendants conspired to
defraud VA by submitting fraudulent claims for VA education beneﬁts. The approximate loss to VA is
$45,000.

                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
36 |
                                                                              Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations
Former Lexington, Kentucky, Contract Nurse Sentenced for Theft of Government Funds
A former Lexington, KY, VAMC contract nurse was sentenced to 6 months’ home detention, 5 years’
probation, and ordered to pay restitution of $35,605 to VA after pleading guilty to theft of Government
funds. An OIG investigation revealed that for approximately 18 months the defendant submitted false time
sheets and invoices to VA. The defendant admitted to forging nearly 15 different supervisory signatures on
the false invoices.

Former Fort Mitchell, Alabama, Cemetery Employee Arrested for Theft of Vehicle Involved in
Homicide
A former Fort Mitchell, AL, NCA Compensated Work Therapy employee was arrested for theft of a
Government vehicle after an OIG, VA Police, and local sheriff’s ofﬁce investigation revealed that the
stolen Government vehicle was used in a homicide. The homicide is currently an ongoing local police
investigation.

Former Fayetteville, North Carolina, Employee Charged with Damage to Government Property
A former Fayetteville, NC, VAMC employee was charged in a criminal information with damage to
Government property and theft of Government property. An OIG and VA Police investigation disclosed that
the defendant intentionally damaged a canister of ethylene oxide (EtO) and exposed himself and other VA
employees to the hazardous chemicals on two separate occasions. Ethylene oxide is a highly carcinogenic
chemical, which is hazardous to humans. All of the VA employees exposed to EtO will be tested annually
due to their exposure.

Former Fayetteville, North Carolina, VAMC Nurse Sentenced for Workers’ Compensation Fraud
A former Fayetteville, NC, VAMC nurse was sentenced to 5 years’ supervised probation, 500 hours’
community service, and ordered to pay $82,300 in restitution. An OIG and DOL OIG investigation
determined that the defendant was receiving Workers’ Compensation beneﬁts, based on a VA-related
injury, while employed as a full-time nurse in a private nursing home. The defendant had reported that she
was unable to return to her VA employment due to her injury.

Former VA Employee Sentenced for Misuse of Government Purchase Card
A former VA employee was sentenced to pre-trial diversion for 6 months and ordered to pay $3,945 in
restitution to VA. An OIG investigation revealed that from 2006 through 2008, the defendant misused her
Government purchase card. When interviewed, the employee admitted to wrongfully using the purchase
card to buy food, medication, gasoline, and manicures. The employee retired shortly after her interview.

Threats Made Against VA Employees
During this reporting period, OIG initiated 21 criminal investigations resulting from threats made against
VA facilities and employees. Nine defendants were charged with making threats as a result of the
investigations. The following summaries provide representative samples of threats made against VA
facilities and employees.

Veteran Sentenced for Making Threats to VA Employees at Dayton, Ohio, VAMC
A Veteran was sentenced to 180 days’ incarceration, which was suspended, and was placed on 5 years’
community control after pleading guilty to aggravated menacing. An OIG investigation determined that the
defendant made threats to kill two Vocational Rehabilitation & Employment (VR&E) counselors if he was

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                             | 37
Issue 65 | October 1, 2010 — March 31, 2011
                                                                  Office of Investigations
denied VR&E beneﬁts. The Veteran was ordered not to have contact with the complaining witnesses and
to report to the VA Police when attending his appointments at the Dayton, OH, VAMC.

Veteran Indicted for Threats to VA Physician at Sierra Vista, Arizona, OPC
A Veteran was indicted for threats to murder a Government employee. An OIG investigation determined
that the defendant made speciﬁc threats to kill his Sierra Vista, AZ, OPC VA physician because the
Veteran claimed he did not receive the treatment he requested. The defendant has prior felony convictions
involving ﬁrearms.

Veteran Arrested for Making Threats to VA Employees
A Veteran was arrested for making telephonic threats to employees of a VA Fiduciary Hub. An OIG,
Federal Protective Service, and local law enforcement investigation determined that the defendant stated
that he was coming to the VA facility because “he was not afraid to die and to take 30 or 40 people with
him.” The defendant has prior arrests and felony convictions for assault.

Veteran Pleads Guilty to Making Threats Against White River Junction, Vermont, VAMC
A Veteran pled guilty to making threats after leaving threatening voicemail messages at the White River
Junction, VT, VAMC. An OIG and VA Police investigation revealed that the defendant stated he would
blow up the place and use an AK-47 and MAC-10 to “Go out in a blaze of glory.” During the interview,
the defendant admitted to making the phone calls and provided a written statement that said, “If you take
away my disability, I will go on a killing spree.” In 2009, the Veteran had threatened another VAMC by
threatening to make an ammonium nitrate bomb.

Veteran Pleads Guilty to Threatening VA Employees
A Veteran pled guilty to charges of assaulting and intimidating a Federal employee and was sentenced
to time served (60 days), 5 years’ probation, 120 hours’ community service, and ordered to attend anger
management and substance abuse counseling. On two separate occasions, the Veteran threatened to kill
VA employees with his AK-47 if he was not granted his VA disability rating.

Veteran Sentenced for Making Threats to Salisbury, North Carolina, VAMC Employee
A Veteran was sentenced to 20 days’ incarceration (suspended) and 12 months’ probation after being found
guilty of threatening to kill a Salisbury, NC, VAMC patient advocate. The defendant left a voicemail for the
employee advising that he knew where to ﬁnd her and stated that all he had to do was walk through the
front door and kill her. Following his arrest and subsequent release for that threat, the defendant went to
the ofﬁce of the employee in an effort to confront her. The Veteran was arrested a second time for violating
his release conditions and a third time for failure to appear in court.

Veteran Sentenced for Making Threats to Salt Lake City, Utah, VA Police Ofﬁcer
A Veteran was sentenced to 1 year of incarceration and 3 years’ probation after pleading guilty to
threatening to kill a Salt Lake City, UT, VAMC police ofﬁcer and the ofﬁcer’s wife. An OIG investigation
determined the Veteran left a threatening telephone message after receiving a citation for vandalism.

Veteran Arrested for Threatening to Shoot Columbia, South Carolina, VARO Employees
A Veteran was arrested by OIG agents after making a threat against Columbia, SC, VARO employees while
using VA’s Inquiry Routing and Information System. At the time of his arrest, the Veteran was wearing


                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
38 |
                                                                             Issue 65 | October 1, 2010 — March 31, 2011
Office of Investigations

body armor and armed with a concealed ﬁrearm. A U.S. Magistrate Judge ordered the Veteran detained.
The defendant admitted making the threats and admitted traveling to a VAMC in a neighboring state earlier
the same day while carrying a concealed handgun and wearing body armor. The Veteran claimed to
have a plan of violence that included robbing local banks to ﬁnance his “crime spree” and shooting VARO
employees.

Former Contractor at Martinez, California, Pleads Guilty to Bomb Threat Hoax
A former Martinez, CA, VA OPC contract housekeeping employee pled guilty to false information and
hoaxes after using the VA Public Address (PA) system to make phony bomb threats on two separate
occasions. The defendant stated over the PA system that there were bombs in the CLC, which houses
Veterans in need of rehabilitation, skilled nursing, and hospice care. The Veterans housed in the CLC had
to evacuate the building after the second bomb threat was made. The defendant admitted to making the
bomb threats to get out of work.

Veteran Arrested for Making Threats to Blow Up VA Clinic in Georgia
A Veteran was arrested for making terroristic threats to a VA clinic associated with the Atlanta, GA,
VAMC. An OIG and local police investigation revealed that the defendant called the clinic and informed
an employee that he was going to blow up the clinic with a grenade, speciﬁcally targeting the employee
because he did not receive his requested medication.

Fugitive Felons Arrested with OIG Assistance
OIG continues to identify and apprehend Veterans and VA employees as a direct result of the OIG
Fugitive Felon Program. To date, 38.9 million felon warrants have been received from the National
Crime Information Center and participating states resulting in 56,697 investigative leads being referred
to law enforcement agencies. Over 2,141 fugitives have been apprehended as a direct result of these
leads. Since the inception of the OIG Fugitive Felon Program in 2002, OIG has identiﬁed $812.3 million in
estimated overpayments with an estimated cost avoidance of $926.7 million. During this reporting period,
OIG made 30 fugitive felon arrests with an additional 19 arrests made by other law enforcement agencies.
Four of these arrests were of VAMC employees at various medical centers wanted on drug and probation
violations. Apprehensions included the following:

• 	 OIG assisted a U.S. Marshals Service Fugitive Apprehension Task Force with arresting a Veteran at the
    Dallas, TX, VAMC for aggravated sexual assault of a 6-year-old child.

• 	 A Veteran wanted for over 21 years for the sexual assault of his 12-year-old niece was arrested based
    on information provided by OIG. The Veteran’s current address in South Carolina was forwarded to
    California law enforcement ofﬁcers, resulting in the fugitive’s arrest and subsequent extradition.

• 	 The OIG assisted a U.S. Marshals Service Fugitive Apprehension Task Force with locating and
    arresting a Veteran at a VAMC homeless facility. The Veteran, categorized as a violent sexual predator,
    was wanted for failure to register as a sex offender.

• 	 A Veteran receiving VA medical services was arrested by a U.S. Marshals Service Fugitive
    Apprehension Task Force for failure to comply with registration as a sexual offender, aggravated
    indecent assault (under age 16), and corruption of minors. The OIG and task force investigators used
    an address and contact information to locate the fugitive, who was publicized in the local media as one
    of the Top Ten Most Wanted fugitives in the area.
VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 39
Issue 65 | October 1, 2010 — March 31, 2011
                              Office of Management and Administration

The Ofﬁce of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efﬁciency through reliable and timely management and administrative
support, and through products and services that promote the overall mission and goals of OIG.

Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations;
provides strategic, operational, and performance planning; prepares and publishes OIG-wide reports,
such as the Semiannual Report to Congress; develops OIG policies and procedures; and electronically
distributes all OIG oversight reports. The Operations Division also promotes organizational effectiveness
and efﬁciency by managing all OIG contracting and providing reliable, timely human resources
management, and related support services.

Information Technology and Data Analysis Division
IT staff promote organizational effectiveness and efﬁciency by ensuring the accessibility, usability, and
security of information assets; developing, maintaining, and enhancing the enterprise database application;
facilitating reliable, secure, responsive, and cost-effective access to VA databases and electronic mail by all
authorized employees; providing internet document management and control; and providing support to all
OIG components.

Data Analysis staff provide automated data processing technical support of OIG and other Federal and
governmental agencies requiring information from VA ﬁles. Data Analysis Division products facilitate the
identiﬁcation of fraud-related activities and support OIG comprehensive initiatives that result in solutions
beneﬁcial to VA.

Administrative and Financial Operations Division
The Administrative and Financial Operations Division promotes OIG organizational effectiveness and
efﬁciency by providing reliable and timely management and administrative support services such as
employee travel, credit card purchases, and property management.

Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of budgetary
formulation and execution services to management and organizational components, including formulation
of submissions and operating plans; monitoring allocations, expenditures, and reserves; conducting
ﬁnancial analyses; and developing internal budget policies.

Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service
5 days a week, Monday through Friday, from 8:30 AM to 4:00 PM Eastern Time. Phone calls, letters,
and e-mails are received from employees, Veterans, the general public, Congress, the Government
Accountability Ofﬁce, and other Federal agencies reporting issues of criminal activity, waste, abuse, and
mismanagement. During this reporting period, the Hotline received 14,936 contacts, 556 of which became
OIG cases. The Hotline also closed 381 cases during this reporting period, substantiating allegations
46 percent of the time. The following cases were initiated as a direct result of Hotline contacts:



                                                                                   VA O f f i c e o f I n s p e c t o r G e n e r a l
40 |
                                                                               Issue 65 | October 1, 2010 — March 31, 2011
Office of Management and Administration
Cleveland, Ohio, VAMC Employees Disregard Patient Safety Procedures
An Administrative Board investigation conducted by the Cleveland, OH, VAMC found that a phlebotomist
and staff improperly directed 14 applicants for employment to perform phlebotomy procedures on 107 VA
patients. The applicants were asked to perform phlebotomy procedures under VA supervision to determine
if they were as experienced as they claimed on their written applications. The VAMC took administrative
action against responsible employees and provided clariﬁcation concerning how future prospective
employees should be evaluated.

Expired FY 2008 Appropriations Unlawfully Used at New York Harbor HCS
A review by the New York Harbor HCS substantiated that ﬁscal employees unlawfully used $1.1 million in
expired FY 2008 appropriations to purchase food supplies for FY 2009. The review also found that HCS
employees frequently did not retain required audit trail documentation to support changes in suspense
dates or adjustments in the Financial Management System. In response to the Hotline, the HCS agreed to
correct the misuse of expired funds and to provide training to responsible ﬁscal staff.

Salt Lake City, Utah, VAMC Failed to Provide Pay Differential to Activated Reservists
A review conducted by the Salt Lake City, UT, VAMC substantiated an allegation that military reservists
serving on Active Duty were not receiving their authorized pay differential because VA had not issued
a policy implementing the payments. VHA plans to begin making the payments as soon as a policy is
implemented, including retroactive payments for employees on qualifying orders on or after
March 15, 2009.

Veteran Receiving VA Pension Concealed Marital Status and Spouse’s Income
A review conducted by the Cleveland, OH, VARO found that a Veteran in receipt of a VA pension
concealed that he had been married since 1983 and that his spouse was receiving Social Security income.
The Veteran’s pension award was terminated and VA began collecting $72,104 in beneﬁt overpayments.

Failure to Report Remarriages Resulted in Beneﬁt Overpayments
A Houston, TX, VARO review substantiated that a surviving spouse improperly received DIC due to
failure to report to VA two subsequent marriages. As a result, VA began collecting $67,263 in beneﬁt
overpayments. In another instance, the Philadelphia, PA, VARO initiated collection of $59,548 from
another surviving spouse who did not report to VA her remarriage.

South Texas Veterans HCS Improperly Suspended Pay Reviews for Physicians and Dentists
The South Texas Veterans HCS acknowledged it suspended required biannual pay reviews for physicians
and dentists in July 2010 due to oversight activities by the Heart of Texas Health Care Network. The
HCS plans to resume the pay reviews in 2011 and to authorize back pay, when appropriate, for recipients
impacted by the review delays.

Detroit, Michigan, VAMC Employee Disciplined for Unauthorized Medical Care
An employee of the John D. Dingell VAMC, Detroit, MI was disciplined and issued a bill of collection for
$3,176 for repeatedly utilizing the resources of the VAMC in a fraudulent manner. The employee submitted
his daughter’s specimen under his name and was provided services by the Pathology and Laboratory
Medicine Service. Although a Veteran, the employee was not enrolled or authorized to receive care. Other
employees were also disciplined.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 41
Issue 65 | October 1, 2010 — March 31, 2011
                                                             Office of Contract Review

The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with VA’s Ofﬁce of
Acquisition, Logistics and Construction (OALC) to provide preaward, postaward, and other requested
reviews of vendors’ proposals and contracts. In addition, OCR provides advisory services to OALC
contracting activities. OCR completed 59 reviews in this reporting period. The tables that follow provide
an overview of OCR performance during this reporting period.

Preaward Reviews
Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair and reasonable
contract prices and ensuring price reasonableness during the term of the contract. Preaward reviews
identiﬁed nearly $123 million in potential cost savings during this reporting period. In addition to FSS
proposals, preaward reviews during this reporting period included 24 health care provider proposals—
accounting for almost $55 million of the identiﬁed potential savings.


                                                            October 1, 2010—March 31, 2011

            Preaward Reports Issued                                          44
             Potential Cost Savings                                    $122,842,089

Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including compliance
with the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products. OCR reviews
resulted in VA recovering contract overcharges totaling over $19.3 million, including $3.2 million related to
Veterans Health Care Act compliance with pricing requirements, recalculation of Federal ceiling prices, and
appropriate classiﬁcation of pharmaceutical products. Postaward reviews continue to play a critical role
in the success of VA’s voluntary disclosure process. Of the 15 postaward reviews performed, 6 involved
voluntary disclosures. In three of the six reviews, OCR identiﬁed additional funds due. OCR recovered
100 percent of recommended recoveries for postaward contract reviews.


                                                            October 1, 2010—March 31, 2011

           Postaward Reports Issued                                          15
                Dollar Recoveries                                       $19,336,739

Inadequate Planning and Signiﬁcant Modiﬁcations Caused Cost Escalation for Firm-Fixed Price
Contract for Wi-Fi Installation
OIG reviewed the contract awarded to Catapult Technology, Ltd. for the installation of Wi-Fi services at
236 VA sites to determine the validity of six allegations regarding the award and administration of the
contract. OIG substantiated ﬁve of the six allegations and partially substantiated the sixth allegation. OIG
determined that inadequate planning and incomplete information regarding requirements caused VA to
process modiﬁcations that led to signiﬁcant increases in contract costs. OIG also determined that VA
processed modiﬁcations adding additional sites, even though there is no provision in the contract that
permits VA to increase the number of sites. Furthermore, OIG also determined that VA was improperly


                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
42 |
                                                                              Issue 65 | October 1, 2010 — March 31, 2011
Office of Contract Review

paying Catapult on a milestone basis rather than a completed site basis as required in the contract. Seven
recommendations were issued to correct the ﬁndings.

Qui Tam Cases
Settlements in four cases against pharmaceutical companies brought under qui tam provisions of the
False Claims Act, P.L. 111-148, recovered $17,447,919 for VA. Three of the cases involved off-label
marketing and anti-kickback violations. The fourth case involved a manufacturer who was selling products
manufactured in a facility that was not approved by the FDA.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                      | 43
Issue 65 | October 1, 2010 — March 31, 2011
                                               Other Significant OIG Activities

Congressional Testimony
Deputy IG Testiﬁes on State of VA Programs and Operations
Deputy IG Richard Grifﬁn testiﬁed on March 9, 2011, before the Subcommittee on Military Construction,
Veterans Affairs, and Related Agencies, Committee on Appropriations, United States House of
Representatives, on the state of VA programs and operations. Mr. Grifﬁn noted that VA has opportunities
to achieve savings, reduce risks, and improve performance and highlighted OIG reports that focused
on the effectiveness of beneﬁts delivery to Veterans, dependents, and survivors; the effectiveness of
health care delivery, speciﬁcally, patient care and safety issues; and the effectiveness of VA’s business
operations. Mr. Grifﬁn was accompanied by Belinda Finn, Assistant Inspector General (AIG) for Audits and
Evaluations; John D. Daigh, Jr., MD, AIG for Healthcare Inspections; and Maureen Regan, Counselor to the
IG.

Assistant IG Testiﬁes on VA’s IT Program
AIG for Audits and Evaluations Belinda Finn testiﬁed on October 6, 2010, before the Committee on
Veterans’ Affairs, United States Senate, at an oversight hearing, VA’s Information Technology Program
– Looking Ahead. Ms. Finn’s testimony focused on VA’s planning and management of IT investments
over recent years, speciﬁcally in the area of IT governance and project management. Historically, VA
has struggled to manage IT project development within cost, schedule, and performance objectives. VA
recently implemented a Project Management Accountability System to strengthen IT project management
and improve the rate of success of VA’s IT projects. OIG will continue to provide oversight of VA’s IT
initiatives, which will provide valuable information to VA as it moves forward in managing IT capital
investments.


Special Recognition
OIG Employees Currently Serving on or Returning From Active Military Duty
Charles Cook, a Healthcare Inspector in the Bay Pines Ofﬁce of Healthcare Inspections, was deployed by
the Army in June 2007 and is currently stationed in Pinellas, Florida. In 2008, Charles brieﬂy served in
Seoul, South Korea, and Atlanta, GA.

Kenneth Sardegna, an Auditor at OIG Headquarters, was deployed by the Army in June 2007 and is
currently stationed at Camp Lemonier, Djibouti. Kenneth also served at the Pentagon for 2 years between
2007-2009.

Randall Snow, Director, Washington, DC, Ofﬁce of Healthcare Inspections, was deployed by the Air Force
in March 2011 and is currently stationed in Afghanistan.

Michael Whitlock, a Special Agent in the Tallahassee Ofﬁce of Investigations, returned from Active Duty
service in Stuttgart, Germany, where he had been deployed by the Army since November 2009.




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
44 |
                                                                            Issue 65 | October 1, 2010 — March 31, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
                                         AUDITS AND REVIEWS
 Education Claims and Payments for the Post-
 9/11 GI Bill                                            -                -         $2,900,000
 Report No. 09-03458-18, Issued 11/3/2010
 VA’s Consolidated Financial Statements for
 Fiscal Year 2010                                        -                -             -
 Report No. 10-01406-20, Issued 11/10/2010
 Retention Incentive Payments at VA Medical
 Center, Providence, Rhode Island                        -                -          $894,790
 Report No. 10-01937-68, Issued 01/20/2011
 VBA’s 100 Percent Disability Evaluations
                                                  $2,073,000,000          -             -
 Report No. 09-03359-71, Issued 01/24/2011
 Veterans Service Network
                                                   $35,000,000       $35,000,000        -
 Report No 09-03850-99, Issued 02/18/2011
 VHA’s State Home Per Diem Program
                                                         -                -             -
 Report No. 10-01529-108, Issued 03/02/2011
 VBA’s Retroactive and One-Time Payments to
 Incompetent Beneﬁciaries                                -                -             -
 Report No. 10-01607-110, Issued 03/03/2011
 Independent Review of VA’s Fiscal Year 2010
 Performance Summary Report to the Ofﬁce of
                                                         -                -             -
 National Drug Control Policy
 Report No. 11-00314-123, Issued 03/17/2011
 Independent Review of VA’s FY 2010 Detailed
 Accounting Submission to the Ofﬁce of National
                                                         -                -             -
 Drug Control Policy
 Report No. 11-00315-126, Issued 03/22/2011
 Veterans Beneﬁts Administration Review of
 Pension Management Centers                        $205,000,000     $205,000,000        -
 Report No. 10-00639-135, Issued 03/30/2011
                                        BENEFITS INSPECTIONS
 VA Regional Ofﬁce, Milwaukee, Wisconsin
                                                         -                -             -
 Report No. 10-03565-69, Issued 01/21/2011
 VA Regional Ofﬁce, St. Paul, Minnesota
                                                         -                -             -
 Report No. 10-03604-75, Issued 01/25/2011
 VA Regional Ofﬁce, Boston, Massachusetts
                                                         -                -             -
 Report No. 10-03564-86, Issued 02/10/2011
 VA Regional Ofﬁce, Boise, Idaho
                                                         -                -             -
 Report No. 10-03858-92, Issued 02/17/2011


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                | 45

Issue 65 | October 1, 2010 — March 31, 2011
                                 Appendix A: List of OIG Reports Issued

                                              Funds Recommended for Better
                                                         Use                              Questioned
       Report Title, Number, and Issue Date
                                                            Agreed to by                    Costs
                                                 by OIG
                                                            Management
VA Regional Ofﬁce, Portland, Oregon
                                                         -  -                                       -
Report No. 11-00070-93, Issued 02/22/2011
VA Regional Ofﬁce, Houston, Texas
                                                         -  -                                       -
Report No. 10-03770-125, Issued 03/21/2011
                                              JOINT REVIEW
Combat Stress in Women Veterans Receiving VA
Health Care and Disability Beneﬁts                       -  -                                       -
Report No. 10-01640-45, Issued 12/16/2010
                          COMBINED ASSESSMENT PROGRAM REVIEWS
VA Gulf Coast Veterans Health Care System,
Biloxi, Mississippi                                      -  -                                       -
Report No. 10-00052-10, Issued 10/19/2010
Northport VA Medical Center, Northport, New
York                                                     -  -                                       -
Report No. 10-00474-14, Issued 10/27/2010
Sioux Falls VA Medical Center, Sioux Falls,
South Dakota                                             -  -                                       -
Report No. 09-03747-15, Issued 10/28/2010
Beckley VA Medical Center, Beckley, West
Virginia                                                 -  -                                       -
Report No. 10-02383-27, Issued 11/10/2010
Memphis VA Medical Center, Memphis,
Tennessee                                                -  -                                       -
Report No. 10-00046-32, Issued 11/22/2010
Edward Hines, Jr., VA Hospital, Hines, Illinois
                                                         -  -                                       -
Report No. 10-02384-33, Issued 11/22/2010
Robley Rex VA Medical Center, Louisville,
Kentucky                                                 -  -                                       -
Report No. 10-00047-34, Issued 11/29/2010
Canandaigua VA Medical Center, Canandaigua,
New York                                                 -  -                                       -
Report No. 10-00475-38, Issued 11/30/2010
VA Boston Healthcare System, Boston,
Massachusetts                                            -  -                                       -
Report No. 10-02980-50, Issued 12/22/2010
Boise VA Medical Center, Boise, Idaho
                                                         -  -                                       -
Report No. 10-02984-54, Issued 01/10/2011
VA North Texas Health Care System, Dallas,
Texas                                                    -  -                                       -
Report No. 10-02983-55, Issued 01/12/2011

                                                                     VA O f f i c e o f I n s p e c t o r G e n e r a l
46 |
                                                                 Issue 65 | October 1, 2010 — March 31, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Philadelphia VA Medical Center, Philadelphia,
 Pennsylvania                                              -              -             -
 Report No. 10-02385-62, Issued 01/13/2011
 West Palm Beach VA Medical Center, West Palm
 Beach, Florida                                            -              -             -
 Report No. 10-01192-63, Issued 01/18/2011
 John D. Dingell VA Medical Center, Detroit,
 Michigan                                                  -              -             -
 Report No. 10-02993-70, Issued 01/21/2011
 Alexandria VA Medical Center, Pineville,
 Louisiana                                                 -              -             -
 Report No. 10-02982-73, Issued 01/24/2011
 Re-Evaluation of Reusable Medical Equipment
 and Environment of Care at the Central Texas
                                                           -              -             -
 Veterans Health Care System, Temple, Texas
 Report No. 10-03926-76, Issued 01/26/2011
 Hunter Holmes McGuire VA Medical Center,
 Richmond, Virginia                                        -              -             -
 Report No. 10-02987-78, Issued 01/31/2011
 VA Salt Lake City Health Care System Salt Lake
 City, Utah                                                -              -             -
 Report No. 10-03093-82, Issued 02/07/2011
 Bay Pines VA Healthcare System, Bay Pines,
 Florida                                                   -              -             -
 Report No. 10-02992-83, Issued 02/08/2011
 Northern Arizona VA Health Care System,
 Prescott, Arizona                                         -              -             -
 Report No. 10-02996-84, Issued 02/10/2011
 VA Connecticut Healthcare System, West Haven,
 Connecticut                                               -              -             -
 Report No. 10-03090-87, Issued 02/14/2011
 Ralph H. Johnson VA Medical Center,
 Charleston, South Carolina                                -              -             -
 Report No. 10-03091-88, Issued 02/14/2011
 Coatesville VA Medical Center, Coatesville,
 Pennsylvania                                              -              -             -
 Report No. 10-02991-96, Issued 02/23/2011
 John J. Pershing VA Medical Center, Poplar
 Bluff, Missouri                                           -              -             -
 Report No. 10-02994-103, Issued 02/24/2011

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 47

Issue 65 | October 1, 2010 — March 31, 2011
                                 Appendix A: List of OIG Reports Issued

                                              Funds Recommended for Better
                                                         Use                              Questioned
       Report Title, Number, and Issue Date
                                                            Agreed to by                    Costs
                                                 by OIG
                                                            Management
Richard L. Roudebush VA Medical Center,
Indianapolis, Indiana                                  -        -                                   -
Report No. 10-03092-129, Issued 03/23/2011
                         COMMUNITY BASED OUTPATIENT CLINIC REVIEWS
Fredericksburg, Danville, and Lynchburg, VA;
Greenville and Rock Hill, SC; Elgin and Oak
                                                       -        -                                   -
Lawn, IL; Wisconsin Rapids and Loyal, WI
Report No. 10-00627-09, Issued 10/19/2010
Farmington and Espanola, NM; Show Low and
Buckeye, AZ; Maui and Kona, HI; Sonora and
                                                       -        -                                   -
Modesto, CA
Report No. 10-00627-17, Issued 11/2/2010
Framingham, MA; Charlottesville, VA; Jennings
and Lafayette, LA; Bridgeport (Decatur) and
                                                       -        -                                   -
Sherman, TX; Caldwell and Twin Falls, ID
Report No. 11-00839-79, Issued 02/03/2011
Spring City and Springﬁeld, PA; Sarasota and
Sebring, FL; Paragould, AR, and Salem, MO;
                                                       -        -                                   -
Cottonwood and Lake Havasu City, AZ
Report No. 11-00840-104, Issued 02/28/2011
Community Based Outpatient Clinic Reviews:
Stamford and Waterbury, CT North Charleston
(Goose Creek), SC and Savannah, GA Nephi,              -        -                                   -
UT and Pocatello, ID
Report No. 11-00841-122, Issued 03/16/2011
                                           NATIONAL REPORTS
Evaluation of Community Based Outpatient
Clinics Fiscal Year 2009                               -        -                                   -
Report No. 10-03103-12, Issued 10/21/2010
Tracking of Medical License Expiration Dates
                                                       -        -                                   -
Report No. 09-01275-35, Issued 11/29/2010
Evaluation of Magnetic Resonance Imaging
Safety in Veterans Health Administration
                                                       -        -                                   -
Facilities
Report No. 09-01038-77, Issued 01/26/2011
Evaluation of Quality Management in Veterans
Health Administration Facilities, Fiscal Year 2010     -        -                                   -
Report No. 10-00415-90, Issued 02/16/2011




                                                                     VA O f f i c e o f I n s p e c t o r G e n e r a l
48 |
                                                                 Issue 65 | October 1, 2010 — March 31, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Radiation Safety in Veterans Health
 Administration Facilities                           -                    -             -
 Report No. 10-02178-120, Issued 03/10/2011
 Combined Assessment Program Summary
 Report Evaluation of Reusable Medical
 Equipment Practices in Veterans Health              -                    -             -
 Administration Facilities
 Report No. 10-00135-121, Issued 03/14/2011
 Combined Assessment Program Summary
 Report Re-Evaluation of Suicide Prevention
 Safety Plan Practices in Veterans Health            -                    -             -
 Administration Facilities
 Report No. 11-01380-128, 03/22/2011
                                      HEALTHCARE INSPECTIONS
 Wound Care Management, Boise VA Medical
 Center, Boise, Idaho                                -                    -             -
 Report No. 10-03194-01, Issued 10/05/2010
 Re-Evaluation of the Quality Management
 Program at the Marion VA Medical Center,
                                                     -                    -             -
 Marion, Illinois
 Report No. 10-03640-02, Issued 10/05/2010
 Alleged Quality of Care, Personnel, and Other
 Community Living Center Issues, Hampton VA
                                                     -                    -             -
 Medical Center, Hampton, Virginia
 Report No. 10-03275-04, Issued 10/12/2010
 Alleged Inappropriate Prescription and Stafﬁng
 Practices, Hampton VA Medical Center,
                                                     -                    -             -
 Hampton, Virginia
 Report No. 10-01167-06, Issued 10/12/2010
 Quality of Care Issues, St. Louis VA Medical
 Center, St. Louis, Missouri, and Minneapolis VA
                                                     -                    -             -
 Health Care System, Minneapolis, Minnesota
 Report No. 10-03313-08, Issued 10/14/2010
 Electronic Ordering of Chemotherapy, Fargo VA
 Medical Center, Fargo, North Dakota                 -                    -             -
 Report No. 10-02882-11, Issued 10/20/2010
 Alleged Community Living Center Quality of Care
 Issues, VA Palo Alto Health Care System, Palo
                                                     -                    -             -
 Alto, California
 Report No. 10-03526-13, Issued 10/26/2010


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 49

Issue 65 | October 1, 2010 — March 31, 2011
                                 Appendix A: List of OIG Reports Issued

                                                   Funds Recommended for Better
                                                              Use                                Questioned
       Report Title, Number, and Issue Date
                                                                 Agreed to by                      Costs
                                                      by OIG
                                                                 Management
Suicide After an Emergency Department Visit at
the Dayton VA Medical Center, Dayton, Ohio               -              -                                  -
Report No. 10-02278-26, Issued 11/9/2010
Alleged Residency Training Issues in Nuclear
Medicine Service, Northport VA Medical Center,
                                                         -              -                                  -
Northport, New York
Report No. 10-01576-28, Issued 11/12/2010
Alleged Issues in Fee Basis Care, Martinsburg
VA Medical Center, Martinsburg, West Virginia            -              -                                  -
Report No. 10-02006-29, Issued 11/16/2010
Quality of Care at a VA Medical Center
                                                         -              -                                  -
Report No. 10-03237-41, Issued 12/9/2010
Alleged Clinical and Administrative Issues at
the Alexandria VA Medical Center, Pineville,
                                                         -              -                                  -
Louisiana
Report No. 10-02875-80, Issued 02/03/2011
Issues with Quality of Patient Care and
Communication, Hampton VA Medical Center,
                                                         -              -                                  -
Hampton, Virginia
Report No. 10-03656-89, Issued 02/15/2011
Alleged Imminent Danger to Patients Southern
Arizona VA Health Care System Tucson, Arizona            -              -                                  -
Report No. 10-01175-91, Issued 02/16/2011
Alleged Quality of Care Issues, Captain James
A. Lovell Federal Health Care Center, North
                                                         -              -                                  -
Chicago, Illinois
Report No. 11-00163-109, Issued 03/02/2011
Alleged Continuity of Care Issues, VA Greater
Los Angeles Healthcare System, Los Angeles,
                                                         -              -                                  -
California
Report No. 11-00910-118, Issued 03/04/2011
Reprocessing of Dental Instruments, John
Cochran Division of the St. Louis VA Medical
                                                         -              -                                  -
Center, St. Louis, Missouri
Report No. 10-03346-112, Issued 03/07/2011
Telemetry Unit Issues John Cochran Division, St.
Louis VA Medical Center, St. Louis, Missouri             -              -                                  -
Report No. 10-00231-113, Issued 03/07/2011




                                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
50 |
                                                                      Issue 65 | October 1, 2010 — March 31, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Alleged Poor Quality of Care in Radiation
 Therapy VA Long Beach Healthcare System,
                                                        -                 -             -
 Long Beach, California
 Report No. 10-03861-119, Issued 03/09/2011
 Alleged Poor Quality of Patient Care Marion VA
 Medical Center Marion, Illinois                        -                 -             -
 Report No. 10-03080-124, Issued 03/16/2011
 Alleged Quality of Care Issues Martinez
 Outpatient Clinic and Center for Rehabilitation
                                                        -                 -             -
 and Extended Care, Martinez, California
 Report No. 10-02468-131, Issued 03/23/2011
 Emergency Room Discharge of a Hospice
 Patient, Hampton VA Medical Center, Hampton,
                                                        -                 -             -
 Virginia
 Report No. 10-04043-136, Issued 03/30/2011
 Quality of Care Issues, VA Northern Indiana
 Health Care System, Fort Wayne, Indiana                -                 -             -
 Report No. 10-02810-139, Issued 03/30/2011
 Customer Care and Satisfaction, Southern
 Arizona VA Health Care System, Tucson, Arizona         -                 -             -
 Report No. 11-00233-137, Issued 03/31/2011
                                   ADMINISTRATIVE INVESTIGATIONS
 Improper Locality Rate of Pay, Ofﬁce of
 Information & Technology, VA Central Ofﬁce             -                 -             -
 Report No. 10-02858-07, Issued 10/14/2010
 Improper Academic Degree Funding, Improper
 Detail and Failure to Cooperate with an OIG
                                                        -                 -             -
 Investigation, OI&T VA Central Ofﬁce
 Report No. 09-01123-16, Issued 10/29/2010
 Failure to Safeguard and Misuse of VA
 Equipment and Lack of Candor, OI&T,
                                                        -                 -             -
 Fayetteville, Arkansas
 Report No. 10-02858-102, Issued 02/23/2011
                                          PREAWARD REVIEWS
 Review of Proposal Submitted Under Solicitation
 Number VA-256-08-RP-0135                           $414,820              -             -
 Report No. 10-03614-03, Issued 10/06/2010
 Review of Proposal Submitted Under Solicitation
 Number VA-263-09-RP-0204                          $1,844,712             -             -
 Report No. 10-02915-05, Issued 10/07/2010

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 51

Issue 65 | October 1, 2010 — March 31, 2011
                                 Appendix A: List of OIG Reports Issued


                                                  Funds Recommended
                                                             Use     for Better                  Questioned
       Report Title, Number, and Issue Date                  UseAgreed to by                       Costs
                                                                                                 Questioned
  Report Title, Number, and Issue Date               by OIG
                                                                                                   Costs
                                                                Management
                                                                 Agreed to by
                                                     by OIG
                                                                 Management
Review of Proposal Submitted Under Solicitation
Number VA-244-10-RP-0103                            $409,110            -                                  -
Report No. 10-04055-19, Issued 11/02/2010
Review of the Proposal Submitted Under
Solicitation VA-260-10-RQ-0519                     $1,744,073           -                                  -
Report No. 10-02886-21, Issued 11/03/2010
Review of Proposal Submitted Under Solicitation
Number SPM2D1-10-R-0011                                 -               -                                  -
Report No. 10-02537-23, Issued 11/05/2010
Review of Proposal Submitted Under Solicitation
Number SPM2D1-10-R-0011                            $21,458,580          -                                  -
Report No. 10-02536-24, Issued 11/08/2010
Review of Federal Supply Schedule Proposal
Submitted Under Solicitation No. M5-Q50A-
                                                    $116,750            -                                  -
03-R2
Report No. 10-03266-25, Issued 11/08/2010
Review of Proposal Submitted Under Solicitation
Number SPM2D1-10-R-0011                            $2,882,401           -                                  -
Report No. 10-02538-36, Issued 11/24/2010
Review of Proposal Submitted Under Solicitation
Number VA-69D-10-RP-0443                           $3,572,352           -                                  -
Report No. 10-04052-37, Issued 11/30/2010
Review of Federal Supply Schedule Proposal
Submitted Under Solicitation Number RFP-797-
                                                   $17,239,790          -                                  -
FSS-99-0025-R6
Report No. 10-02766-39, Issued 12/01/2010
Review of Proposal Submitted Under Solicitation
Number VA-256-10-RP-0201                           $1,032,745           -                                  -
Report No. 10-03046-22, Issued 12/02/2010
Review of Proposal Submitted Under Solicitation
Number VA-251-10-RP-0030                           $2,441,246           -                                  -
Report No. 11-00145-04, Issued 12/07/2010
Review of Federal Supply Schedule Proposal
Submitted Under Solicitation No. RFP-797-FSS-
                                                   $4,183,528           -                                  -
99-0025-R6
Report No. 10-02552-42, Issued 12/09/2010
Review of Federal Supply Schedule Proposal
Submitted Under Solicitation No. M5-Q50A-
                                                    $947,371            -                                  -
03-R2
Report No. 10-02259-44, Issued 12/14/2010
                                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
52 |
                                                                      Issue 65 | October 1, 2010 — March 31, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Review of Federal Supply Schedule Proposal
 Submitted Under Solicitation No. RFP-797-FSS-
                                                      $14,496,082        -              -
 03-0001-R1
 Report No. 10-03686-46, Issued 12/15/2010
 Review of Federal Supply Schedule Proposal
 Submitted Under Solicitation No. M5-Q50A-
                                                           -             -              -
 03-R2
 Report No. 10-03608-47, Issued 12/15/2010
 Review of Proposal Submitted Under Solicitation
 Number VA-256-10-RP-0239                              $881,364          -              -
 Report No. 11-00774-48, Issued 12/20/2010
 Review of Proposal Submitted Under Solicitation
 Number VA-257-10-RP-0036                             $19,143,062        -              -
 Report No. 11-00605-49, Issued 12/21/2010
 Review of Proposal Submitted Under Solicitation
 Number VA-257-10-RP-0035                             $3,240,215         -              -
 Report No. 11-00606-43, Issued 12/22/2010
 Review of Proposal Submitted Under Solicitation
 Number VA-257-10-RP-0020                             $5,307,102         -              -
 Report No. 11-00773-51, Issued 01/03/2011
 Review of Federal Supply Schedule Proposal
 Submitted Under Solicitation Number 797-FSS-
                                                           -             -              -
 03-0001-R1
 Report No. 10-03843-56, Issued 01/07/2011
 Review of Federal Supply Schedule Proposal
 Submitted Under Solicitation No. RFP-797-FSS-
                                                      $1,952,809         -              -
 99-0025-R6
 Report No. 10-03883-57, Issued 01/07/2011
 Review of Proposal Submitted Under Solicitation
 Number VA-251-10-RP-0097                              $444,571          -              -
 Report No. 11-00376-59, Issued 01/10/2011
 Review of Proposal Submitted Under Solicitation
 Number VA-243-10-RQ-0161                             $1,626,257         -              -
 Report No. 11-00658-60, Issued 01/11/2011
 Review of Proposal Submitted Under Solicitation
 Number SPM2D1-10-R-0011                                   -             -              -
 Report No. 10-02535-61, Issued 01/11/2011
 Review of Federal Supply Schedule Extension
 Proposal                                                  -             -              -
 Report No. 10-03782-64, 01/12/2011


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 53

Issue 65 | October 1, 2010 — March 31, 2011
                                 Appendix A: List of OIG Reports Issued

                                                  Funds Recommended for Better
                                                             Use                                Questioned
       Report Title, Number, and Issue Date
                                                                Agreed to by                      Costs
                                                     by OIG
                                                                Management
Review of Federal Supply Schedule Proposal
Submitted Under Solicitation No. M5-Q50A-
                                                        -              -                                  -
03-R2
Report No. 11-00409-67, Issued 01/13/2011
Review of Proposal Submitted Under Solicitation
Number VA-257-10-RP-0207                            $641,193           -                                  -
Report No. 11-00607-66, Issued 01/20/2011
Review of Proposal Submitted Under Solicitation
Number VA-263-10-RP-0238                            $400,232           -                                  -
Report No. 11-00846-74, Issued 01/27/2011
Review of Proposal Submitted Under Solicitation
Number VA-69D-11-RP-0079                            $817,792           -                                  -
Report No. 11-01043-65, Issued 01/28/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R1                          -              -                                  -
Report No. 11-00036-81, Issued 02/02/2011
Review of Proposal Submitted Under Solicitation
Number VA-247-10-RP-0081                           $1,233,791          -                                  -
Report No. 11-00784-94, Issued 02/16/2011
Review of Proposal Submitted Under Solicitation
Number VA-255-10-RQ-0023                           $1,299,214          -                                  -
Report No. 11-01097-95, Issued 02/24/2011
Review of Proposal Submitted Under Solicitation
Number VA-257-10-RP-0022                           $5,489,453          -                                  -
Report No. 11-00909-107, 02/24/2011
Review of Proposal Submitted Under Solicitation
Number VA-69D-11-RP-0038                                -              -                                  -
Report No. 11-01657-106, Issued 02/28/2011
Review of Federal Supply Schedule Extension
Proposal Submitted Under Contract Number
                                                   $2,277,768          -                                  -
V797P-4921a
Report No. 11-00727-114, Issued 03/04/2011
Review of Federal Supply Schedule Proposal
                                                        -              -                                  -
Report No. 10-03969-115, Issued 03/04/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R2                          -              -                                  -
Report No. 11-00696-116, Issued 03/04/2011
Review of Proposal Submitted Under Solicitation
Number VA-247-11-RP-0025                            $208,484           -                                  -
Report No. 11-01498-117, Issued 03/10/2011

                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
54 |
                                                                     Issue 65 | October 1, 2010 — March 31, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Review of Proposal Submitted Under Solicitation
 Number VA-260-10-RQ-0215                         $437,606                -              -
 Report No. 11-01431-111, Issued 03/14/2011
 Review of Federal Supply Schedule Proposal
 Submitted Under Solicitation Number RFP-797-
                                                 $2,131,274               -              -
 FSS-99-0025-R6
 Report No. 11-00775-127, Issued 03/18/2011
 Review of Federal Supply Schedule Proposal
 Submitted Under Solicitation Number M5-Q50A-
                                                      -                   -              -
 03-R2
 Report No. 11-00954-130, Issued 03/22/2011
 Review of Proposal Submitted Under Solicitation
 Number VA-244-10-RP-0256                        $1,886,406               -              -
 Report No. 11-01036-132, Issued 03/25/2011
 Review of Proposal Under Solicitation Number
 VA-244-10-RP-0295                                $639,936                -              -
 Report No. 11-01037-133, Issued 03/31/2011
                                        POSTAWARD REVIEWS
 Review of Overcharges Under a Federal Supply
 Schedule Contract                                    -                   -          $173,925
 Report No. 09-02510-30, Issued 11/16/2010
 Review of Voluntary Disclosures Under Section
 603 of Public Law 102-585 for a Federal Supply
                                                      -                   -         $ 2,035,188
 Schedule Contract
 Report No. 08-00592-31, Issued 11/17/2010
 Review of Overcharges and Refund Offer
 Under a Federal Supply Schedule Contract             -                   -          $20,854
 Report No. 10-02390-40, Issued 12/07/2010
 Postaward Review of a Federal Supply Schedule
 Contract                                             -                   -         $9,587,631
 Report No. 07-00434-52, Issued 12/23/2010
 Review of Compliance with Section 603 of
 Public Law 102-585 Under a Federal Supply
                                                      -                   -          $542,338
 Schedule Contract
 Report No. 04-02587-58, Issued 01/11/2011
 Post-Award Review of a Federal Supply
 Schedule Contract                                    -                   -          $14,581
 Report No. 10-01178-53, Issued 01/18/2011




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                | 55

Issue 65 | October 1, 2010 — March 31, 2011
                                 Appendix A: List of OIG Reports Issued

                                               Funds Recommended for Better
                                                          Use                                   Questioned
       Report Title, Number, and Issue Date
                                                             Agreed to by                         Costs
                                                  by OIG
                                                             Management
Review of Voluntary Disclosure Submitted Under
a Federal Supply Schedule Contract                     -               -                             $1,167
Report No. 10-00772-72, Issued 01/20/2011
Post-Award Review of a Federal Supply
Schedule Contract                                      -               -                             $5,946
Report No. 09-02324-85, Issued 02/07/2011
Review of Addition of Covered Drugs Under a
Federal Supply Schedule Contract                       -               -                                  -
Report No. 10-02202-97, Issued 02/22/2011
Review of Overcharges Relating to Federal
Ceiling Price Recalculations Under a Federal
                                                       -               -                          $217,693
Supply Schedule Contract
Report No. 11-01235-100, Issued 02/22/2011
Review of Overcharges Under a Federal Supply
Schedule Contract                                      -               -                          $252,693
Report No. 09-02982-101, Issued 02/23/2011
Review of Voluntary Disclosure and Refund Offer
Under a Federal Supply Schedule Contract               -               -                           $39,246
Report No. 10-01869-105, 02/24/2011
Report of Monetary Recovery from Overbillings
Under a VA Contract                                    -               -                         $4,020,650
Report No. 06-03090-98, Issued 02/24/2011
Review of Supplemental Voluntary Disclosure
and Refund Offer Under a Federal Supply
                                                       -               -                         $2,424,827
Schedule Contract
Report No. 08-01945-134, Issued 03/24/2011
Review of Allegations of Acquisition Planning
Weaknesses and Cost Overruns on the Contract
                                                       -               -                                  -
Awarded to to Catapult Technology, Ltd.
Report No. 10-02868-138, Issued 03/31/2011
Total Funds Recommended for Better Use          $2,313,000,000   $240,000,000                       -
Total Questioned Costs                                 -               -                       $3,794,790
Total Preaward Savings and Cost Avoidance        $122,842,089          -                            -
Total Postaward Dollar Recoveries                      -               -                       $19,336,739




                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
56 |
                                                                     Issue 65 | October 1, 2010 — March 31, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to complete
ﬁnal action on each OIG report recommendation within 1 year after the report is ﬁnalized. OIG is required
to identify unimplemented recommendations in its Semiannual Report to Congress until the ﬁnal action is
completed. This table summarizes the status of all unimplemented OIG reports and recommendations.
Results are sorted by the action ofﬁce responsible for implementation. Additionally, the table indicates how
many of these unimplemented OIG reports and recommendations are less than or more than 1 year.

As of March 31, 2011, there are 135 open reports and 703 open recommendations. However, some of
these reports and recommendations are counted more than once in the table below because they have
actions at more than one ofﬁce. Of the reports open less than 1 year, 2 reports and 6 recommendations
have actions at two or more ofﬁces. Although the FY 2009 Federal Information Security Management
Act (FISMA) audit contains unimplemented OIG recommendations from previous years’ FISMA audits, the
report and its recommendations are considered to be open less than 1 year because it was issued after
March 31, 2010.


                               Table 1: Total Unimplemented OIG Reports and Recommendations




                                                                                                 Total Reports Open
                                                                             Reports Open More




                                                                                                                                                          Recommendations
                                                         Reports Open Less




                                                                                                                                        Recommendations
                                                                                                                      Recommendations




                                                                                                                                         Open More Than
                                                                                                                       Open Less Than
                                                            Than 1 Year



                                                                                Than 1 Year




                                                                                                                           1 Year



                                                                                                                                             1 Year



                                                                                                                                                               Open
                                                                                                                                                               Total
           Veterans Health Administration                    96                    7             103                      525                23              548
          Veterans Beneﬁts Administration                    12                    2              14                      64                  3               67
          National Cemetery Administration                    1                    0               1                       3                  0                3
         Ofﬁce of Information & Technology                    8                    6              14                      29                 29               58
         Ofﬁce of Operations, Security, and
                                                               1                   0                 1                     11                 0                11
                    Preparedness
         Ofﬁce of Acquisitions, Logistics, and
                                                               1                   2                 3                      7                 4                11
                    Construction
                    Chief of Staff                          1                     0               0                       11                  0               11
                        Total                              120                   17              137                     650                 59              709




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                                                                  | 57
Issue 65 | October 1, 2010 — March 31, 2011
                      Appendix B: Status of OIG Reports Unimplemented
                                                        for Over 1 Year

       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                  Responsible Number of Open   Monetary
     Report Title, Number, and Issue Date
                                                  Organization Recommendations  Impact
Review of Issues Related to the Loss of VA
Information Involving the Identity of Millions of
                                                     OI&T           1 of 6        -
Veterans
Report No. 06-02238-163, Issued 07/11/2006

Recommendation d: We recommend that the Secretary ensure that all position descriptions are evaluated and have proper
sensitivity level designations, that there is consistency nationwide for positions that are similar in nature or have similar
access to VA protected information and automated systems, and that all required background checks are completed in a
timely manner.

Healthcare Inspection, Review of VA Use of
Animals in Research Activities                                      VHA                   4 of 6                                -
Report No. 07-01148-109, Issued 04/15/2009

Recommendation 1: We recommended that the Under Secretary for Health work with all VA animal research programs to
require university afﬁliates’ compliance with the requirements of VHA Handbook 1200.7.

Recommendation 2: We recommended that the Under Secretary for Health ensure that all VA animal research programs
have an active occupational health program.

Recommendation 4: We recommended that the Under Secretary for Health ensure that the VHA work orders submitted for
repairs to ARFs [Animal Research Falities] are completed in a timely fashion.

Recommendation 6: We recommended that the Under Secretary for Health deﬁne minimum qualiﬁcation standards for
VMOs [Veterinary Medical Ofﬁcers] and VMCs [Veterinary Medical Consultants] performing duties described in VHA
Handbook 1200.7.

Follow-Up Audit of VA’s Major Construction
Contract Award and Administration Process                          OALC                   1 of 4                                -
Report No. 08-01960-112, 04/29/2009

Recommendation 3: We recommended the Executive Director for OALC develop written QA [Quality Assurance] policies
and procedures, and program performance measures addressing all QA Service areas of responsibilities.

Audit of VA’s Management of Information
Technology Capital Investments                                      OI&T                  1 of 5                                -
Report No. 08-02679-134, Issued 05/29/2009

Recommendation 4: We recommend that the Acting Assistant Secretary for Information and Technology clearly deﬁne the
roles of the IT governance boards responsible for providing oversight and management of VA’s IT capital investments.




                                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
58 |
                                                                                          Issue 65 | October 1, 2010 — March 31, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
      Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact
 Audit of Veterans Health Administration’s
 Management of Non-Controlled Drugs               VHA           2 of 6             -
 Report No. 08-01322-114, Issued 06/23/2009

 Recommendation 2: We recommended the Under Secretary for Health develop appropriate internal controls to ensure
 pharmacy managers and staff accurately and consistently record drug-dispensing activity in VistA.

 Recommendation 6: We recommended the Under Secretary for Health develop standardized electronic annual physical
 inventory reporting formats; develop standards to ensure that annual physical inventory reports are reasonably accurate; and
 establish a procedure to hold VA health care facility pharmacy managers accountable for the accuracy of annual physical
 inventory reports.

 Healthcare Inspection, Review of VHA
 Residential Mental Health Care Facilities Report                   VHA                  9 of 10                    -
 No. 08-00038-152, Issued 06/25/2009

 Recommendation 2: We recommended that the Acting Under Secretary for Health should ensure that VISN Directors
 include programming speciﬁc for OIF/OEF veterans in residential programs.

 Recommendation 3: We recommended that the Acting Under Secretary for Health ensure that VISN Directors should make
 sure that residential program managers ensure that patients on waiting lists are periodically contacted and/or engaged in
 treatment while awaiting placement in a residential program.

 Recommendation 4: We recommended that the Acting Under Secretary for Health ensure that VISN Directors make sure
 that medical screening precedes admission for all patients in all residential programs and be documented accordingly.

 Recommendation 5: We recommended that the Acting Under Secretary for Health ensure that VISN Directors make sure
 that minimum programming requirements are met 7 days per week.

 Recommendation 6: We recommended that the Acting Under Secretary for Health should further develop formal guidelines
 for mental health clinician stafﬁng by mental health discipline for programs using an all-inclusive stafﬁng model and for
 programs using a residential type clinical stafﬁng model.

 Recommendation 7: We recommended that the Acting Under Secretary for Health should require the presence of at least
 one staff member on each separate wing and ﬂoor of residential programs on all shifts.

 Recommendation 8: We recommended that the Acting Under Secretary for Health ensure that residential programs limit
 dispensing of narcotic self-medication to no more than a 7-day supply for residential program patients.

 Recommendation 9: We recommended that the Acting Under Secretary for Health ensure that all patients on self-
 medication have a documented order for self-administration.

 Recommendation 10: We recommended that the Acting Under Secretary for Health ensure that missed appointments by
 residential program patients should be captured, addressed, and case managed in a uniform manner.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                         | 59
Issue 65 | October 1, 2010 — March 31, 2011
                      Appendix B: Status of OIG Reports Unimplemented
                                                        for Over 1 Year

       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                             Responsible Number of Open       Monetary
     Report Title, Number, and Issue Date
                                             Organization Recommendations      Impact
Audit of VA Electronic Contract Management
System                                          OALC           3 of 8             -
Report No. 08-00921-181, Issued 07/30/2009

Recommendation 1: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction develop and
implement VA-wide eCMS policy and handbook to ensure consistent use and compliance with system requirements.

Recommendation 6: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction in
coordination with the Assistant Secretary for Information and Technology establish a plan to evaluate the technical
performance of eCMS to ensure improved processing.

Recommendation 7: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction coordinate
with the Assistant Secretary for Management and the Assistant Secretary for Information and Technology to determine the
feasibility of integrating eCMS with the IFCAP or FMS systems in order to eliminate or minimize duplicate data entry and
streamline the procurement process.

Administrative Investigation, Misuse of
Position, Abuse of Authority, and Prohibited
Personnel Practices, Ofﬁce of Information &                         OI&T                 2 of 11                                -
Technology, Washington, DC
Report No. 09-01123-195, Issued 08/18/2009

Recommendation 5: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
of Human Resources to determine the appropriate corrective action concerning _______’s appointment, to include her
appointment at a rate above the minimum, and take such corrective action.

Recommendation 9: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
Human Resources to determine the appropriate corrective action concerning the appointments of the four
GS-15s and take such corrective action.

Administrative Investigation, Nepotism, Abuse
of Authority, Misuse of Position, Improper
Hiring, and Improperly Administered Awards,                         OI&T                 20 of 34                               -
OI&T, Washington, DC*
Report No. 09-01123-196, Issued 08/18/2009

Recommendation 2: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
HR to determine the appropriate corrective action concerning _______’s VA appointments, and take such action.

Recommendation 6: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
HR to determine the appropriate corrective action concerning _______’s appointment, to include her appointment at a rate
above the minimum, and take such action.




                                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
60 |
                                                                                          Issue 65 | October 1, 2010 — March 31, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year

            Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                  Responsible Number of Open       Monetary
           Report Title, Number, and Issue Date
                                                  Organization Recommendations      Impact

 Recommendation 7: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
 HR to determine the appropriate corrective action concerning _______’s appointment, to include her appointment at a rate
 above the minimum, and take such action.


 Recommendation 10: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
 HR to determine the appropriate corrective action concerning _______’s improper VA appointment, and take such action.


 Recommendation 13: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
 of HR to determine the appropriate corrective action concerning _______’s improper VA appointment, to include her
 appointment at a rate above the minimum, and take such action.

 Recommendation 18**: We recommend that the Assistant Secretary for Information and Technology ensure that a bill of
 collection is issued to _______ in the amount of $33,407.88 to recover funds improperly expended to pay for her academic
 degree.

 Recommendation 19**: We recommend that the Assistant Secretary for Information and Technology ensure that a bill of
 collection is issued to _______ in the amount of $27,930 to recover funds improperly expended to pay for her academic
 degree.

 Recommendation 20**: We recommend that the Assistant Secretary for Information and Technology ensure that a bill of
 collection is issued to _______ in the amount of $25,711 to recover funds improperly expended to pay for her academic
 degree.

 Recommendation 21**: We recommend that the Assistant Secretary for Information and Technology ensure that a bill of
 collection is issued to _______ in the amount of $27,561 to recover funds improperly expended to pay for his academic
 degree.

 Recommendation 22**: We recommend that the Assistant Secretary for Information and Technology ensure that a bill of
 collection is issued to _______ in the amount of $15,153 to recover funds improperly expended to pay for his academic
 degree.

 Recommendation 23**: We recommend that the Assistant Secretary for Information and Technology ensure that a bill of
 collection is issued to _______ in the amount of $9,568 to recover funds improperly expended to pay for her academic
 degree.

 Recommendation 24: We recommend that the Assistant Secretary for Information and Technology ensure that OI&T
 conducts a review of its use of the academic degree funding authority, ensure that all requirements are met, and take
 appropriate corrective action in cases where funds were improperly expended.

 Recommendation 26: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
 of HR to determine the appropriate corrective action concerning the improper FCIP appointments, failure to provide 2-year
 formal training programs, and subsequent conversions to career-conditional status of _______, and take such action.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                         | 61
Issue 65 | October 1, 2010 — March 31, 2011
                      Appendix B: Status of OIG Reports Unimplemented
                                                        for Over 1 Year

        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
       Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact

Recommendation 27: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
of HR to determine whether OI&T managers made additional improper FCIP appointments, failed to provide a 2-year formal
training program, and subsequently converted employees to career-conditional status, and take appropriate corrective action.

Recommendation 28: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
HR to ensure that: (1) FCIP hiring is used only in cases when an approved program is established for speciﬁc career ﬁelds;
(2) managers and supervisors are knowledgeable of and adhere to FCIP requirements; (3) interns appointed under FCIP
fully participate in the program and are certiﬁed to have successfully completed the program prior to conversion to career or
career-conditional status; and (4) HR provides the required oversight and guidance as required by VA policy.

Recommendation 29: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
HR to determine the appropriate corrective action concerning the improper DHA appointments of _______ and take such
action.

Recommendation 30: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
HR to identify any additional improper VA appointments made using DHA, and take appropriate corrective action.

Recommendation 31: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
HR to ensure that HR personnel and managers with hiring authority are advised of the use and limitations of DHA.

Recommendation 32: We recommend that the Assistant Secretary for Information and Technology ensure that OI&T
Recommending and Approving Ofﬁcials receive training on Federal regulations and VA and OI&T policy related to monetary
awards, as well as be reminded of their ﬁscal responsibility.

Recommendation 33: We recommend that the Assistant Secretary for Information and Technology ensure that a review of
OI&T retention incentives is conducted to ensure that they are necessary and support the mission and program needs and
that they fully comply with law, OPM regulations, and VA policy.

* OIG disagrees with the Ofﬁce of General Counsel’s (OGC’s) legal opinions ﬁnding that a violation of the nepotism statute
did not occur, but closed recommendations 1 and 3 because OI&T is planning no further action in light of OGC’s legal
opinions.

** OIG acknowledges that OGC provided opinions dated July 9 and August 13, 2010, that the nepotism statute was not
violated and no legal basis exists for collecting funds from individual employees; however, OIG continues to hold these
recommendations open pending receipt of sufﬁcient evidence that the responsible ofﬁce, OI&T, has determined any tax
implications to the employees and any other appropriate administrative actions for inappropriate approval of funding of
academic degrees.

Veterans Beneﬁts Administration’s Control of
Veterans’ Claim Folders                                             VBA                   2 of 9                                -
Report No. 09-01193-228, Issued 09/28/2009

Recommendation 2: We recommended the Under Secretary for Beneﬁts establish a mechanism to identify and track the
number of claims folders regional ofﬁce personnel rebuild.




                                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
62 |
                                                                                          Issue 65 | October 1, 2010 — March 31, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year

            Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                  Responsible Number of Open       Monetary
           Report Title, Number, and Issue Date
                                                  Organization Recommendations      Impact

 Recommendation 9: We recommended the Under Secretary for Beneﬁts establish a mechanism to ensure regional ofﬁce
 personnel enforce the maximum 60 day search established in recommendation 8 and take corrective actions to meet the
 standard where improvement is needed.

 Department of Veterans Affairs System
 Development Life Cycle Process                                   OI&T                 4 of 4                   -
 Report No. 09-01239-232, Issued 09/30/2009

 Recommendation 1: We recommend the Assistant Secretary for Information and Technology require OI&T develop and issue
 a directive that communicates, VA-wide, the mandatory requirements of VA’s SDLC process outlined in the existing Program
 Management Guide to ensure consistent management of VA’s IT investment portfolio.

 Recommendation 2: We recommend the Assistant Secretary for Information and Technology require OI&T implement
 controls to continuously monitor all programs and projects in VA’s IT investment portfolio.

 Recommendation 3: We recommend the Assistant Secretary for Information and Technology enforce disciplined
 performance and quality reviews on all major programs and projects in VA’s IT investment portfolio.

 Recommendation 4: We recommend the Assistant Secretary for Information and Technology require OI&T establish and
 maintain a central data repository to store all program artifacts, including cumulative cost and schedule data.

 Healthcare Inspection, Community Based
 Outpatient Clinic Reviews, Macon and Albany,
 GA; Beaver Dam, WI, and Rockford, IL; Sioux
                                                                  VHA                 1 of 17                   -
 City, IA, and Aberdeen, SD; Waterloo, IA, and
 Galesburg, IL
 Report No. 09-01446-37, Issued 12/02/2009

 Recommendation 12: We recommended that the VISN 23 Director ensure that the Iowa City VAMC Director requires
 physician privileges are appropriate to the procedures performed at both the Waterloo and Galesburg CBOCs.

 Healthcare Inspection, VistA Outages
 Affecting Patient Care, Ofﬁce of Risk
 Management and Incident Response, Falling                        OI&T                 1 of 5                   -
 Waters, WV
 Report No. 09-01849-39, Issued 12/03/2009

 Recommendation 3: We recommend that the Assistant Secretary for Information and Technology ensure that the Ofﬁce for
 Information Protection and Risk Management performs and reports on risk management for essential medical IT systems.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                     | 63
Issue 65 | October 1, 2010 — March 31, 2011
                      Appendix B: Status of OIG Reports Unimplemented
                                                        for Over 1 Year

       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                             Responsible Number of Open       Monetary
     Report Title, Number, and Issue Date
                                             Organization Recommendations      Impact
Inspection of VA Regional Ofﬁce, Roanoke, VA
                                                 VBA           1 of 6             -
Report No. 09-01995-63, Issued 01/14/2010

Recommendation 6: We recommend the Roanoke VA Regional Ofﬁce Director research alternative locations to store and
safeguard veterans’ claims folders and expeditiously relocate these folders to reduce the risk of structural damage to the
building and ensure employee safety.

Healthcare Inspection, Review of Inappropriate
Copayment Billing for Treatment Related to
                                                                    VHA                  1 of 3                                -
Military Sexual Trauma
Report No. 09-01110-81, Issued 02/04/2010

Recommendation 1: We recommended that the Acting Under Secretary for Health ensure the use and implementation of a
method speciﬁcally designated to track MST-related care at all VHA medical facilities so that MST treatment data are readily
accessible across the VA system.

Healthcare Inspection, Hospitalized
Community-Dwelling Elderly Veterans:
Cognitive and Functional Assessments and                            VHA                  1 of 1                                -
Follow-up after Discharge
Report No. 09-01588-92, Issued 03/04/2010

Recommendation 1: We recommended that the Under Secretary for Health develop and implement a plan to ensure that
vulnerable elders admitted to hospitals have a documented assessment of cognitive functioning.

Audit of VA’s Efforts to Provide Timely
Compensation and Pension Medical
                                                                    VHA                  5 of 10                               -
Examinations
Report No. 09-02135-107, Issued 03/17/2010

Recommendation 1: We recommend the Acting Under Secretary for Health establish procedures to capture compensation
and pension medical examination workload data at the examination level for all examinations conducted by VHA, fee-basis,
and local contract providers.

Recommendation 2: We recommend the Acting Under Secretary for Health establish procedures to capture all costs
associated with each compensation and pension medical examination conducted by VHA, fee-basis, and local contract
providers.


Recommendation 3: We recommend the Acting Under Secretary for Health establish procedures to measure productivity
by identifying the number of full-time equivalents who conduct VHA compensation and pension medical examinations and
establishing standard times to complete each type of compensation and pension medical examination.




                                                                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
64 |
                                                                                         Issue 65 | October 1, 2010 — March 31, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
            Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                  Responsible Number of Open       Monetary
           Report Title, Number, and Issue Date
                                                  Organization Recommendations      Impact

 Recommendation 4: We recommend the Acting Under Secretary for Health utilize and monitor data on VHA workload, costs,
 and productivity to ensure sufﬁcient and appropriate resources are dedicated to completing compensation and pension
 medical examination requests sent to VA medical facilities.

 Recommendation 5: We recommend the Acting Under Secretary for Health establish timeliness performance standards that
 adequately measure whether veterans receive timely compensation and pension medical examinations conducted by VHA,
 fee-basis, and local contract providers.

 TOTALS                                                           17                  59                    $0




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                  | 65
Issue 65 | October 1, 2010 — March 31, 2011
                              Appendix C: Inspector General Act Reporting
                                                            Requirements
The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
General Act Amendments of 1988, P.L. 100-504, and the Omnibus Consolidated Appropriations Act of
1997, P.L. 104-208.

FFMIA requires OIG to report instances and reasons when VA has not met the intermediate target
dates established in the VA remediation plan to bring VA’s ﬁnancial management system into substantial
compliance with the Act. VA has made signiﬁcant progress on the material weaknesses reported in FY
2010. Only the IT Security Controls deﬁciency was repeated as a material weakness in VA’s FY 2010
consolidated ﬁnancial statements. The prior year report identiﬁed four material weaknesses in the areas
of (1) Financial Management System Functionality, (2) IT Security Controls, (3) Financial Management
Oversight, and (4) Compensation, Pension, and Burial Liabilities. The Financial Management System
Functionality and the Compensation, Pension, and Burial Liabilities material weaknesses have been
downgraded to signiﬁcant deﬁciencies this year. The Financial Management Oversight ﬁnding was not
repeated.

         IG Act                              Reporting                                                   Status
       References                           Requirements
                                                                                             351 total reviews
                     Review of legislative, regulatory, and administrative
 Section 4 (a) (2)                                                                           commented on 20
                     proposals
                                                                                             times
 Section 5 (a) (1)   Signiﬁcant problems, abuses, and deﬁciencies                            See pages 8-44

                     Recommendations with respect to signiﬁcant problems,
 Section 5 (a) (2)                                                                           See pages 8-44
                     abuses, and deﬁciencies
                     Prior signiﬁcant recommendations on which corrective action
 Section 5 (a) (3)                                                                           See pages 57-65
                     has not been completed
                     Matters referred to prosecutive authorities and resulting
 Section 5 (a) (4)                                                                           See pages 21-39
                     prosecutions and convictions

 Section 5 (a) (5)   Summary of instances where information was refused                      None
                     List of reports by subject matter, showing dollar value of
 Section 5 (a) (6)   questioned costs and recommendations that funds be put to               See pages 45-56
                     better use
 Section 5 (a) (7)   Summary of each particularly signiﬁcant report                          See pages 8-44
                     Statistical tables showing number of reports and dollar value
 Section 5 (a) (8)   of questioned costs for unresolved, issued, and resolved                See page 67
                     reports
                     Statistical tables showing number of reports and dollar value
 Section 5 (a) (9)   of recommendations that funds be put to better use for                  See page 67
                     unresolved, issued, and resolved reports



                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
66 |
                                                                             Issue 65 | October 1, 2010 — March 31, 2011
Appendix C: Inspector General Act Reporting
Requirements

         IG Act                                                Reporting                                  Status
       References                                             Requirements
                                       Summary of each audit report issued before this reporting
                                                                                                   See Table 1 and
  Section 5 (a) (10)                   period for which no management decision was made by end
                                                                                                   Table 2 below
                                       of reporting period
  Section 5 (a) (11)                   Signiﬁcant revised management decisions                     None
                                       Signiﬁcant management decisions with which the Inspector
  Section 5 (a) (12)                                                                               None
                                       General is in disagreement
  Section 5 (a) (13)                   Information described under section 5(b) of FFMIA           See page 66




                                     Table 1: Resolution Status of Reports with Questioned Costs
                                                                                                      Dollar Value
                                      RESOLUTION STATUS                                Number
                                                                                                      (In Millions)
  No management decision by 03/31/2010                                                     0                        $0
  Issued during reporting period                                                           3                     $3.8
    Total inventory this period                                                            3                     $3.8
  Management decisions during the reporting period
  Disallowed costs (agreed to by management)                                               3                       $3.8
  Allowed costs (not agreed to by management)                                              0                         $0
    Total management decisions this reporting period                                       3                       $3.8
    Total carried over to next period                                                      0                         $0




                                 Table 2: Resolution Status of Reports with Recommended Funds
                                             To Be Put To Better Use By Management
                                                                                                      Dollar Value
                                      RESOLUTION STATUS                                Number
                                                                                                      (In Millions)
  No management decision by 03/31/2010                                                     0                       $0
  Issued during reporting period                                                           3                   $2,313
    Total inventory this period                                                            3                   $2,313
  Management decisions during the reporting period
  Agreed to by management                                                                  2                     $240
  Not agreed to by management                                                              1                   $2,073
    Total management decisions this reporting period                                       3                   $2,313
    Total carried over to next period                                                      0                       $0




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                      | 67
Issue 65 | October 1, 2010 — March 31, 2011
        Appendix D: Government Contractor Audit Findings
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each IG appointed
under the Inspector General Act of 1978 to submit an appendix on ﬁnal, completed contract audit reports
issued to the contracting activity that contain signiﬁcant audit ﬁndings—unsupported, questioned, or
disallowed costs in an amount in excess of $10 million, or other signiﬁcant ﬁndings—as part of the
Semiannual Report to Congress. During this reporting period, OIG issued no contract review reports under
this requirement.




                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
68 |
                                                                          Issue 65 | October 1, 2010 — March 31, 2011
Appendix E: American Recovery and Reinvestment Act
Oversight Activities
Enacted in February 2009, ARRA requires OIG to conduct oversight of the VA projects, programs, grants,
and initiatives that received a total of $1.4 billion in funding under the Act. OIG’s program of oversight
includes audits, evaluations, investigation, fraud awareness and prevention training, and other monitoring
activities covering the major VA programs that received ARRA funding. The VA programs and the amounts
of their ARRA funding include:

      • 	 $1.0 billion for VHA medical facility nonrecurring maintenance (NRM) and energy projects.
      • 	 $150.0 million for VHA Grants to States for extended care facilities.
      • 	 $50.0 million for NCA headstone, marker, gravesite, and monument repairs; NRM, energy, and road
          repair projects; and equipment upgrades.
      • 	 $150 million for VBA claims processing hiring initiative and support of Veterans economic recovery
          payments.
      • 	 $45 million for OI&T support of VBA implementation of the new Post 9/11 GI Bill education
          assistance programs for Veterans.

Additionally, the Act provided for an estimated $700 million for the one-time $250 economic recovery
payments to Veterans and their survivors or dependents.

As of March 31, 2011, OIG has expended $2.3 million (the entire $1.0 million OIG received under ARRA
and $1.3 million from regular appropriations) in conducting its comprehensive program of ARRA oversight.
OIG’s ARRA-related accomplishments and activities completed to date include:

      •     I	ssued seven ﬁnal audit and evaluation reports and one interim advisory report on VA management
             of ARRA program activities.
      •	     Conducted 422 fraud awareness training and outreach sessions across the country attended by
             over 12,300 VA and other ofﬁcials responsible for managing or overseeing ARRA programs and
             projects.
      •	     Opened 147 and closed 38 criminal investigations, including 12 convictions, 11 referrals for
             monetary reclamation, and $3,000 in recoveries related to ARRA-funded programs and projects.
      •	     Received 58 Hotline complaints of potential fraud or waste related to ARRA programs or projects.
      •	     Established the OIG Recovery Act Web Site, http://www.va.gov/oig/recovery, which provides access
             to the VA OIG Hotline and information on OIG ARRA reports, activities, plans, and fraud prevention
             training materials.

Under ARRA, an employee of any non-Federal employer receiving covered ARRA funds may not be
discharged, demoted, or otherwise discriminated against as a reprisal for disclosing information that the
employee reasonably believes is evidence of: 1) gross mismanagement of an agency contract or grant
relating to covered funds; 2) a gross waste of covered funds; 3) a substantial and speciﬁc danger to public
health or safety related to the implementation or use of covered funds; 4) an abuse of authority related to
the implementation or use of covered funds, or 5) a violation of law, rule, or regulation related to an agency
contract or grant, awarded or issued relating to covered funds.

Pursuant to the reporting requirements under this provision, OIG conducted no investigations such as
those described above. Consequently, OIG did not request or receive an extension beyond the 180-day
period for such investigations.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           | 69
Issue 65 | October 1, 2010 — March 31, 2011
            Appendix F: Restoring American Financial Stability Act
                                         Reporting Requirements
Pursuant to the Restoring American Financial Stability Act of 2010, P.L. 111-203, OIG reports that no peer
reviews were conducted by another OIG during the reporting period ending March 31, 2011. The last peer
review was conducted by the U.S. Department of Agriculture OIG on December 23, 2009. This report
contains no outstanding recommendations. VA OIG conducted an external peer review of the Department
of Transportation OIG and issued the ﬁnal report on March 3, 2010, which contained no recommendations.




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
70 |
                                                                            Issue 65 | October 1, 2010 — March 31, 2011
                                                     This page left intentionally blank.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                           | 71

Issue 65 | October 1, 2010 — March 31, 2011
       This page left intentionally blank.




                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
72 |
                                             Issue 65 | October 1, 2010 — March 31, 2011
On the Cover
Veterans use adaptive skies to maneuver snowy mountains during the National Disabled Veterans
Winter Sports Clinic, held March 28 –April 2, 2010, in Snowmass Village, CO. This event is the
world leader in promoting rehabilitation by instructing Veterans with disabilities in adaptive Alpine
and Nordic skiing, and introducing them to a number of other adaptive recreational activities and
sports. For many newly injured Veterans, including many injured in Iraq and Afghanistan, the Clinic
offers their first experience in winter sports and gives them the inspiration to take their rehabilitation
to a higher level. Participants include Veterans with spinal cord injuries, amputations, TBIs,
neurological challenges, and visual impairments. VA photos by Jeff Bowen. and Mark Arlinghaus.
       United States Department of Veterans Affairs




                                                                               VA OIG Semiannual Report to Congress
                     Office of Inspector General




Report Fraud, Waste, Abuse, or Misconduct
Help VA’s Secretary ensure the integrity of departmental operations by
reporting suspected criminal activity, waste, abuse, or misconduct in VA
       programs or operations to the Inspector General Hotline.
                    Callers can remain anonymous.


           Telephone: 800-488-VAIG (8244) | Fax: 202-565-7936
   E-mail: vaoighotline@va.gov | http://www.va.gov/oig/contacts/hotline.asp

                       Department of Veterans Affairs




                                                                              Issue 65 | October 1, 2010—March 31, 2011
                      Inspector General Hotline (53E)
                              P.O. Box 50410
                        Washington, DC 20091-0410
